No. ________
IN THE

Supreme Court of the United States

d

CHRISTINE ALMAS ROSE , individually and as mother
of Jessie Lee Rose, MICHAEL J. ROSE , I ndividually
and as father of Jessie Lee Rose, and as the
administrator of the estate of Jessie Lee Rose,
—v.—

Petitioners,

CITY OF UTICA , OFFICER ANTHONY ELLIS ,
individually and as a police officer of the City of Utica,
Respondents.
ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE SECOND CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

WOODRUFF L. CARROLL
Counsel of Record
Woodruff Lee Carroll P.C.
334 Nottingham Road
Syracuse, New York 13210
(315) 474-5356
carrollcarroll@carrolloffice.com
Counsel for Petitioners

i
QUESTIONS PRESENTED
Did the Second Circuit commit legal error when it
granted qualified immunity to the police officer when:
a. the officer’s testimony about being shot at is a
lie, contradicting the objective facts; being shot at
was a physical impossibility because the gun was
pointing at the deceased as stated in the autopsy
(the wadding and shell casing were in the deceased’s
abdomen and in the shotgun wound) at the time of
the shooting and the witnesses (including the
officer) state that only one shot was fired from the
shotgun; there was no second ejected shell in the
vicinity of the deceased and the casing was still in
the breach from the shot;
b. Did not strike the officer’s testimony for
untruthfulness;
c. Said court found a reasonable apprehension of
imminent harm when;
1. the deceased did not at any time threaten
anybody and always pointed the gun barrel either
in the air (in the ready position) or at himself and;
2. The officer admitted he could see that the
gun slide and therefore the direction of the gun
barrel, based on the objective evidence of the
autopsy and the eyewitnesses (the shotgun wound,
slugs, wadding, etc. were in the deceased
Petitioner’s abdomen), indicates that the gun barrel
was pointed at the Deceased Petitioner Jessie Rose
and away from the officer and bystanders;
3. the eyewitnesses state that they felt safe and
were not threatened;
4. The officer orders the person to stand, then
shoots at him and misses, then orders him to drop

ii
the gun and then while the deceased Jessie Rose
is removing the gun strap over his head, shoots
him in his left hand, causing the shotgun to jerk
and discharge into the abdomen of the Petitioner;
5. all the deceased did was stand, turn and try
to remove the gun;
6. The deceased had committed no crime in
Utica (shooting a gun in a park in Utica is at most
a violation) except possessing an altered shotgun,
which was not known until after the shooting.
Should the court consider the five minutes before
the shooting when the Deceased was behaving
erratically, shooting a gun in a large empty park (circa
1/2 mile long and about 500 feet wide at this point) at
the ground and at the trees, away from the residences
and people, apparently mad at his girlfriend for not
appearing (again) for an agreed scheduled rendezvous,
which is an indication that the deceased needed a
mental evaluation and that this was a mental health
pickup?
Did the Second Circuit commit legal error when,
after the deceased had been sitting on the slide
harmlessly for five minutes, in the next three seconds
before the shooting the officer conversed with the
witnesses, then swung his car around over the curb,
leapt from the car, recklessly drew his gun and
charged into the park with a drawn gun based solely
on an identification of the feet of a person sitting on a
slide, while shouting commands at the back of the
Deceased and within seconds is shooting at the
deceased rather than waiting 30 seconds for backup to
arrive instead of first using a megaphone to determine
if the decedent would drop the gun peacefully?

iii
Did the behavior of the officer violate the mental
health pick up regulation of the Utica police, which
require that a dialogue be set up and the person talked
to if initially there was no imminent threat of harm to
the officer or bystanders while the Deceased was
harmlessly seated on a slide for five minutes before the
incident?
Do the facts stated above create a claim for excessive
force under the United States Constitution and defeat
qualified immunity?
Does merely standing, turning and possessing a gun
(the admitted facts) under the Second Amendment in
the presence of a police officer create a qualified
immunity for the police officer?
Was it legal error to consider a shooter threat
continuing when the deceased had been harmlessly
sitting on a slide for five minutes?

iv
LIST OF PARTIES TO THE PROCEEDINGS
All parties appear in the caption of the case on the
cover page.
RELATED CASES AND PROCEEDINGS
The action was commenced on October 10, 2014.
Defendants appeared on November 20, 2014.
Discovery was done. Defendant moved for summary
judgment on October 23, 2017.
Rose v. City of Utica and Officer Ellis, Docket
number: 6:14-cv-01256-BKS-TWD. The final judgment
of the District Court granting summary judgment was
entered on: April 19, 2018. Notice of appeal from the
District Court order was filed on May 16, 2018. The
Utica Police Department was dropped as a defendant
as redundant of the City of Utica.
Rose v. City of Utica and Officer Ellis, Docket
number: 18-1491. United States Court of Appeals for
the Second Circuit. Said court entered a final
judgment on: September 25, 2019.
Rose v. City of Utica and Officer Anthony Ellis, Index
number: EFCA 2018-0029000. Supreme Court of the
State of New York Case stayed by agreement of
counsel pending resolution of federal case.

v
TABLE OF CONTENTS

PAGE

QUESTIONS PRESENTED ................................

i

LIST OF PARTIES TO
THE PROCEEDINGS ....................................

iv

RELATED CASES AND PROCEEDINGS .........

iv

TABLE OF AUTHORITIES ................................

viii

STATEMENT OF
BASIS FOR JURISDICTION ........................

1

DATE OF THE JUDGMENT.........................

1

DATE OF ORDER ON REHEARING ...........

1

STATEMENT OF THE CASE.............................

1

LOWER COURT JURISDICTION ................

1

STATEMENT OF FACTS ..............................

2

INITIAL ACTIONS OF DECEASED .......

2

ACTIONS OF WITNESSES .....................

2

THREAT TO BYSTANDERS
AND OFFICER ....................................

3

SHOOTING ...............................................

4

EYEWITNESSES CONCUR THAT
NOBODY WAS THREATENED .........

8

PROPER HANDLING
OF INCIDENT .....................................

10

vi
PAGE

OFFICER ELLIS’S UNTRUTHFUL
DEFENSE ............................................

11

AFTER THE INCIDENT ..........................

12

ARGUMENT ........................................................

13

SECOND AMENDMENT RIGHTS ...............

19

CONFLICTS BETWEEN CIRCUITS ............

19

CONCLUSION ....................................................

20

APPENDIX TABLE OF CONTENTS
Appendix A: Second Circuit Summary Order,
Rose v. City of Utica, No. 18-1491-cv,
dated September 25, 2019 ..............................

1a

Appendix B: United States District Court,
Northern District of New York MemorandumDecision and Order, Rose v. City of Utica,
No. 6:14-cv-01256, dated April 19, 2018........

6a

Appendix C: United States District Court,
Northern District of New York Judgment,
Rose v. City of Utica, No. 6:14-cv-01256,
dated April 19, 2018 .......................................

42a

Appendix D: Constitution of the United States
of America, Fourth Amendment ....................

44a

Appendix D: 42 USC 1983 Civil Action for
Deprivation of Rights .....................................

44a

vii
PAGE

Appendix D: New York Penal Code § 35.30.
Justification; use of physical force in
making an arrest or in preventing
an escape .........................................................

45a

Appendix D: New York Penal Code § 35.15.
Justification; use of physical force in
defense of a person .........................................

47a

Appendix D: Utica City Ordinances:
Appendix D: Sec. 2-18-36 Discharging rifles,
firearms or slingshots; throwing missiles;
hitting golf balls [Code 1964, § 18-2] .............

49a

Appendix D: Sec. 2-18-46 Enforcement of
provisions [Ord. No. 115, § 8, 6-2-1993] ........

49a

Appendix E: Excerpt of Autopsy Report .............

50a

viii
TABLE OF AUTHORITIES

PAGE(S)

Cases
Curnow v. Ridgecrest Police,
952 F2d 321 (9th Cir. 1991) ...........................

19

Deorle v. Rutherford,
272 F3d 1272 (9th Cir. 2001) .........................

19

Hayes v. New York City Dep’t. of Corrections,
84 F.3d 614 (2nd Cir. 1996)............................ 16, 17
Perma Research & Dev. Co. v. Singer Co.,
410 F.2d 572 (2d Cir. 1969) ............................

17

Salazar-Limon v. City of Houston,
137 S. Ct. 1277 (2017) ....................................

18

Statutes
28 USC 1254 ........................................................

1

28 USC 1291 ........................................................

1, 2

28 USC 1294 ........................................................

1, 2

28 USC 1331 ........................................................

1, 2

28 USC 1343 ........................................................

1, 2

42 USC 1983 ........................................................

1

Constitutional Provisions
Second Amendment .............................................

19

Fourth Amendment .............................................

1

1
STATEMENT OF
BASIS FOR JURISDICTION
The issues presented herein are federal questions
under the Fourth Amendment of the Constitution of
the United States of America and 42 USC 1983. The
Northern District of New York District Court has
original jurisdiction under 28 USC 1331 and 28 USC
1343. The Second Circuit Court of Appeals had
jurisdiction under 28 USC 1291, 28 USC 1294 over a
final decision of the district Court.
The final decision of the Second Circuit was filed on
September 25, 2019. There was no petition for
rehearing. The Certiorari petition is made within 90
days of entry of the judgment under Supreme Court
Rule 13. The Petitioner has made a certiorari
application herein to the Supreme Court of the United
States of America under 28 USC 1254, appealing the
final order of the Second Circuit based on the federal
questions presented in the Circuit Court and the
district court.
DATE OF THE JUDGMENT:
The Final Judgment of the United States Second
Circuit Court of Appeals was September 25, 2019.
DATE OF ORDER ON REHEARING
There was no rehearing.
STATEMENT OF THE CASE
LOWER COURT JURISDICTION
The issues presented herein are federal questions
under the Fourth Amendment of the Constitution of
the United States of America and 42 USC 1983. The
Northern District of New York District Court has

2
original jurisdiction under 28 USC 1331 and 28 USC
1343. The Second Circuit Court of Appeals had
jurisdiction under 28 USC 1291, 28 USC 1294 over a
final decision of the district Court.
STATEMENT OF FACTS
INITIAL ACTIONS OF DECEASED
The incident occurred in Addison park in Utica. This
park is half mile long and at the relevant location more
than a football field wide circa 500 feet. At the time in
question it was empty.
The Petitioner had a rendezvous in the park
scheduled with his on again off again girlfriend. in a
wooded area of this large park in Utica. She did not
show as promised (again). Petitioner Jessie got mad.
The scene evidence of the shells and wadding show:
He left the wooded area. and shot the ground twice
then turned and shot at the woods twice. There was
one round of ancient ammunition left in his old rusty
Mossberg 5+1 shotgun, which had been altered to be
the about the size of Mossberg Shockwave. He went
and sat on the slide to calm down.
ACTIONS OF WITNESSES
Two concerned eyewitnesses called the police. The
dispatcher issued an all points bulletin to the entire
Utica police force for an immediate response.
One eyewitness left his cellphone on and the
recording showed that: Five minutes after he called
911 Officer Ellis arrives. Officer Ellis talks to the
complainants. Together they deduce that it might be
Jessie’s feet they see underneath end of the slide. At
this time Jessie was just sitting on the slide with his
back to the witnesses and officer over 100 feet away.

3
THREAT TO BYSTANDERS AND OFFICER
At this time the Decease Jessie presented no
imminent harm to bystanders of the officer. He was
seated with is back to them on a slide.
Defendant Officer Ellis was never threatened.
Willis:
Q. Let’s take it inch by inch so it’s clear. Your
the officer pulls up and parks his car. What is
my guy what is Jessie doing ?
A. He’s holding his gun toward himself. Like
he didn’t aim it at the cop, I’m going to tell you
that much.
Q. Okay.
A. He got the gun toward himself
The bystanders were never threatened, Rabbia:
Q. At any time did you see Jessie threaten
anybody?
A. No.
Rabbia:
Q. Now at one point in the 911 call you state
that you were not in immediate danger. Was
that because you had believed the individual
had exited the park?
A. I didn’t know where he was and I was a
block away from where I originally was,
because I went around the block. I just felt
that at the moment that very moment I didn’t
know he wasn’t pointing a gun directly at me
I didn’t see him there. I felt I was safe for the
moment.
Rabbia also says in the 911 call that he is safe.

4
Willis:
Q. You don’t know anything about guns?
A. No, sir Mixed martial arts, yes.
Q. At any time did you see Jessie threaten
anyone?
A. Himself.
Q. Himself. And nobody else?
A. not that I witnessed.
Willis:
Q. But he never — he never threatened you or
your children, correct?
Not at all
Even Maddox, a former cop in Utica, is unable to
identify any threat beyond the mere possession of a
weapon.
SHOOTING
The following occurred in the next five seconds:
Based on the foot identification, Officer Ellis swings
his car around over the curb, leaps from the car, draws
his gun and charges into the park shouting commands
at Jessie’s back to stand up and drop the gun.
Jessie had been sitting peacefully for about five
minutes on the slide with the gun strap on his shoulder
holding the gun. His back was to the charging, yelling
officer.
At this time Petitioner Rose had the gun pointed up.
Petitioner Rose held the gun from his upper left
shoulder (left hand on the slide) down to his stomach
(right hand on the handle) Maddox.
Petitioner Rose had the gun strap on. Willis:

5
A. Know he had it — He had a strap on him,
so that it’s like once he went there is like
whatever happened it didn’t disarm itself
from him it stayed with attached to him it was
like the gun shown he got shot, the gun flung,
it was still strapped on him.
Q. in other words he had a strap over his
shoulder?
A. I would presume it gun to stay strapped on
him after the shots. It just stayed there.
Petitioner Rose stood and turned to his left when the
cop ordered him to stand and drop the gun. Ellis
admits he ordered Petitioner Jessie to drop the gun:
Q. What was Jessie doing when you first saw
him?
A. He was sitting on the slide.
Q. At that point in time what were you
thinking?
A. I wasn’t thinking anything. I started to
yell to him to stand up and let me see his
hands.
Ellis:
Q. Now, what did you do?
A. I yelled for him to drop his gun.
But Jessie was wearing the gun strap. The gun had
to be rotated over his head to be removed with the
strap.
The gun was not pointed at Defendant Ellis. The gun
was pointed toward Petitioner Rose. Willis:

6
Q. Let’s take it inch by inch so it’s clear. Your
the officer pulls up and parks his car. What is
my guy what is Jessie doing ?
A. He’s holding his gun toward his self. Like
he didn’t aim it at the cop, I’m going to tell you
that much.
Q. Okay.
A. He got the gun toward himself
Then Defendant Ellis shoots the gym. Ellis:
Petitioner Rose had the gun in the ready position.
Maddox: Petitioner Rose rotated the gun from Ready
position to vertical. Rabbia:
Q. and the moving of the gun around is what
you showed us before, he rotated it.
A. Rotated vertical
Q. rotated 90 degrees from horizontal to
vertical
A. yes.
The gun was in the vertical position when Jessie was
shot. The autopsy report states:
Based on consideration of circumstances
surrounding the death, review of available
medical history/records, autopsy examination,
and toxicological analysis, the death of Jessie
Rose, to a reasonable degree of medical
certainty, is the result of a shotgun wound of
the abdomen. A complete autopsy found a
perforating shotgun wound of the abdomen
that entered about four inches above the
umbilicus slightly right of midline and exited
from a point about 2 1/2 inches lower on the
left back, about 2 1/2 inches left of the spine.

7
Wadding recovered by the surgeons and also
identical to that seen from the spent shells on
the ground in police scene photos is consistent
with some sort of Sabot or slug type of load
and appears to be of old vintage. The range of
fire is intermediate with stippling found
around the wound within a 4 cm radius. Such
a “sawed-off” shotgun could leave a pattern of
stippling as seen on the body when fired from
a very short distance away, such as an inch or
two, even though the presence of stippling by
definition makes the range of fire
“intermediate.”
The measurements from the autopsy enable the
angle of the gun at discharge to be triangulated. They
prove the gun was vertical at the time of discharge
corroborating the eyewitness account by triangulating
the gun from the bullet path.
The proof corroborates that the gun was pointing at
Petitioner Rose and being rotated from horizontal to
vertical (with the strap on) at the time he was shot.
This rotation is the exact movement required to
remove the gun and the strap. This is reasonable as
the cop had already shot once and hit the gym and
Jessie would be motivated to remove the gun.
Then while Jessie was removing the gun the cop
shot and hit the left hand of Petitioner Rose when the
gun was vertical.
Autopsy report states:
The only other gunshot wound on the body
was on the left hand, through the left fifth
metacarpal bone, which entered the dorsal
hand and exited the palm. The characteristics

8
of the hand wound are consistent with the
police ammunition known to have been used.
*

*

*

The range of fire is intermediate with
stippling found around the wound within a 4
cm radius. Such a “sawed-off” shotgun could
leave a pattern of stippling as seen on the
body when fired from a very short distance
away such as an inch or two, even though the
presence of stippling by definition makes the
range of fire “intermediate.”
Ellis:
Q. and now what did Jessie do?
A. I fired my
immediately.

second

round

almost

Q. and where did the second round hit?
A. Where it hit at that time I didn’t know
Q. What do you know now if you know?
A. His hand
After hitting the left hand of the Decedent, the gun
went off. The shotgun went off into Petitioner Rose’s
stomach and damaged the renal artery of Petitioner
Rose. Jessie died.
EYEWITNESSES CONCUR THAT NOBODY
WAS THREATENED
Defendant Ellis was never threatened. Willis:
Q. Let’s take it inch by inch so it’s clear. Your
the officer pulls up and parks his car. What is
my guy what is Jessie doing ?

9
A. He’s holding his gun toward himself. Like
he didn’t aim it at the cop, I’m going to tell you
that much.
Q. Okay.
A. He got the gun toward himself
The bystanders were never threatened. Rabbia :
Q. At any time did you see Jessie threaten
anybody?
A. No.
Rabbia:
Q. Now at one point in the 911 call you state
that you were not in immediate danger. Was
that because you had believed the individual
had exited the park?
A. I didn’t know where he was and I was a
block away from where I originally was,
because I went around the block. I just felt
that at the moment that very moment I didn’t
know he wasn’t pointing a gun directly at me
I didn’t see him there. I felt I was safe for the
moment.
Rabbia also says in the 911 call that he is safe.
Willis:
Q. You don’t know anything about guns?
A. No, sir. Mixed martial arts, yes.
Q. At any time did you see Jessie threaten
anyone?
A. Himself.
Q. Himself. And nobody else?
A. not that I witnessed.

10
Willis:
Q. But he never — he never threatened you
or your children, correct?
A. Not at all
Even Maddox, a former cop in Utica, is unable to
identify any threat beyond the mere possession of a
weapon.
PROPER HANDLING OF INCIDENT
Initially the officer should have used a megaphone,
not a gun. Jessie was just sitting on the slide. There
was plenty of time to wait for back up from the other
officers who arrived seconds after the shooting. By first
addressing the Deceased Jessie over the megaphone,
the officer would have been able to determine the
degree of threat safely and determine if this was a
mentally disturbed person or kid mad at his girlfriend
or an immediate threat. Rather than just charging into
the park with a drawn gun and starting to shoot at the
first opportunity. This megaphone approach not only
protects Jessie, a potentially disturbed teen, but is
safer for the bystanders in the event an imminent
threat or harm appears.
After charging into the park he should not have
started shooting because on the officer’s own
statements: he was able to see the slide on the gun and
that Jessie racked it. Before he rotated the gun toward
vertical and it pointed at him. (Petitioners deny this
happened) but that means he could see the gun barrel
pointed at Jessie. Instead of trying to save an
emotionally disturbed kid’s life, the officer shot him.
The Deceased actions of erratically shooting off a
gun in a park indicate a potential mental health case.
Petitioner needed observation and evaluation, even if

11
he did not commit a crime. Instead of a mental health
pick up, he was shot to death because this officer failed
to follow the rules and regulations.
OFFICER ELLIS’S UNTRUTHFUL DEFENSE
Ellis alleges he was shot at. Ellis:
Q. When did Jessie first see you?
A. I think he saw me when I told him to let
me see his hands after he know I was there.
Q. Then what did you do?
A. He discharged a round and I immediately
returned fire
Ellis had previously received a 60 day suspension for
lying in a prior excessive force case. In this case his
version of events could not have occurred. (infra) He
was not shot at based on the following objective proof.
1. There was no ejected shell or wadding
unaccounted for after a thorough search by the police.
Two shells on the ground, two shells away with wading
at the woods the woods, one slug in Jessie.one shell in
the breach with wadding in Jessie No ejected shell was
found near the slide or where Jessie was standing.
2. The wadding from this shot is in Jessie’s
abdomen with the slug fragments. The shell is in the
breach of the gun. The autopsy states:
Wadding recovered by the surgeons and also
identical to that seen from the spent shells on
the ground in police scene photos is consistent
with some sort of Sabot or slug type of load
and appears to be of old vintage. The range of
fire is intermediate with stippling found
around the wound within a 4 cm radius. Such
a “sawed-off” shotgun could leave a pattern of

12
stippling as seen on the body when fired from
a very short distance away such as an inch or
two, even though the presence of stippling by
definition makes the range of fire
“intermediate.”
3. Ellis and the eyewitnesses both testified that
there was only one shot from the shotgun,
4. All the other shells and wadding are accounted
for. Two shot into the ground in a group two shells with
wadding shot at the woods
5. There are no shells or wadding near where
Jessie was standing or found anywhere else on the
area after a complete police search to indicate a second
shot was fired.
Defendant Ellis did not testify that there was a
mistake or misperception. Ellis testified he was shot
at.
Defendant Ellis’s version of events contradicts all of
the eyewitnesses and, the objective proof at the scene
and the other testimony of the officer.
Officer Ellis had a previously been suspended for 60
days for lying in another excessive force case.
AFTER THE INCIDENT
After the incident Officer Ellis told his superior
officer that he was shot at.
Then at the deposition Officer Ellis stated that he
was shot at.
But then in the summary judgment motion, without
proof in the record, counsel announced that Officer
Ellis had made a mistake as to the direction the gun
barrel was pointing at the time of the shooting and

13
claimed the officer had misperceived the direction of
the gun barrel.
Petitioner’s counsel replied that Officer Ellis
testified that if he could see the slide on the shotgun,
he knew which way the barrel was pointing. The
officer stated that shotgun had been racked and
therefore could tell where the gun barrel was pointing
and see that the Deceased was turning it toward
himself.
The lower court ruled that it was sufficient that the
deceased stood and turned with a gun to justify being
shot to death. The Second Circuit agreed and that
there was a reasonable threat to be perceived.
The misperception of the direction of the gun barrel
contradicts the previous testimony of the police officer
that he was shot at, and first appeared in the summary
judgment motion after his deposition.
ARGUMENT
The case presents exceptional credibility issues
beyond the normal he said she said credibility issues.
The officer was suspended for 60 days for lying in an
excessive force case before this incident and attempted
to lie to obtain qualified immunity in this case by
stating he was shot at. The interrelationship between
these objective facts and contradicting the objective
facts by lying has not been dealt with by the courts as
to whether an officer is entitled to qualified immunity.
I can find no case in which this or any court has
reached the issue of how to apply qualified immunity
when the officer’s version of the facts is physically
impossible and directly contradicts the objective facts
of the incident. This is distinct from the almost
traditional disagreement of the criminal and the

14
officer on the facts of the incident. The incident could
not have occurred in the manner stated by the officer.
In this case there was only one shot by the deceased’s
shotgun and the slug, wadding, etc. from this shot is
in the abdomen of Jessie Rose, not fired at the officer.
The testimony of the officer that he was shot at is a lie
on the most central fact in the case.
Nor can I find a single case in which the deceased was
attempting to follow the police orders and was shot to
death. The officer ordered Jessie to stand up and drop the
gun. Jesse stood up and the officer shot at him through
the jungle gym, hitting the gym. Jessie turned, had the
gun strap over his shoulder. He rotated the gun to
vertical from the ready position to the point of discharge,
attempting to remove the strap so he could drop the gun
in compliance with the officer’s orders. None of this
creates a reasonable basis for perceiving a threat.
Additionally, the Second Circuit found that he did
not follow orders and that there was a perception of
imminent harm. But the deceased patently followed
the order to stand and he was rotating the gun to
remove it when shot. The gun was never pointed at the
officer or anyone else and nobody was ever threatened
by their own admission. There is no basis for
reasonable perception of a threat.
Nor have I been able to locate a case that grants
qualified immunity when the gun is visibility pointed
at the deceased at the time the officer shot. The
autopsy report states:
Based on consideration of circumstances
surrounding the death review of available
medical history/records, autopsy examination
and toxicology analysis the death of Jessie Rose
to a reasonable degree of reasonable certainty is
the result of a shotgun wound of the abdomen.

15
Nor can I find a case that says the courts can
contradict the testimony of the witnesses and the
officer and determine the officer’s state of mind. The
officer testified that he was shot at, not threatened.
There is no support in the record for the statement
that he did not follow Officer’s orders or that there was
ever an imminent threat of harm.
The courts ignored the testimony of the officer that
he was shot at (which is physically impossible), and
found that he had a reasonable perception of danger.
Apparently from my client pointing the gun barrel at
himself.
Both at the scene, at the station and in his
deposition, Officer Ellis chose to lie to obtain qualified
immunity. Just like he did previously in another
excessive force case. He was suspended for 60 days for
lying in that case.
This officer’s actions of not evaluating the scene
before he acted, which he had plenty of time to do, and
wait for backup could have endangered the bystanders
and himself and resulted in the death of Jessie Rose.
The deceased was complying with the orders of the
officer to stand up and drop the gun at the time he was
shot. The deceased was lawfully in a park with a gun
and had committed no crime other than the gun being
altered. His behavior was at most a violation in Utica,
not a misdemeanor. The stated remedy is to ask to
leave the park.
But based on decedent’s previous erratic behavior, a
psychiatric/mental health evaluation would have been
advisable. Instead of a mental health pick up case, he
was shot to death.
No reasonable misperception or perception of harm
occurred because the gun was obviously pointed at the

16
Deceased when the officer fired, not the officer. The
second shot hit the decedent, which jerked the gun,
causing it to shoot into his abdomen.
The lying testimony of the officer is that he was shot
at, which contradicts the objective facts. The officer
testified that he could see the slide and other parts of
the gun. On his own admission he knew what direction
the gun was pointing at — the deceased.
The officer failed to comply with the department
policies that he analyze the scene and act accordingly.
There was no urgency or imminent danger of injury to
anyone when the officer arrived and entered the park.
Upon charging into the park for no reason at all he
created the issues that led to the shooting. He should
have waited for back up that was seconds away,
coordinated with them and talked to the deceased and
determined if there was a problem. This is the
standard police practice when they have time. This is
why the case is distinguishable from the other cases
they were all short immediate action cases.
Merely standing and possessing a gun in a park is a
poor reason to get shot. Then standing and turning in
response to a police order and removing the gun in
response to the police order does not create an
imminent danger of harm to the officer or the
bystander. The Deceased has a constitutional right to
possess a weapon and use it lawfully.
The defense that the officer was shot at was
completely destroyed; the Defendant City of Utica
announced that it must be misperception, not that he
was not really shot at, in its brief. The statement that
the Officer was shot at flatly contradicts the rules on
admissions in federal court, estoppel and the rules for
summary judgment. The statement is a sham. Hayes
v. New York City Dep’t. of Corrections, 84 F.3d 614 (2nd

17
Cir. 1996); Perma Research & Dev. Co. v. Singer Co.,
410 F.2d 572 (2d Cir. 1969). The Defendant cannot
submit an affidavit on summary judgment that
contradicts former testimony because his former
testimony is inconvenient.
In federal court reversal of previously held
admissions are not allowed or admissible. In federal
court a material change of position creates an estoppel
for denying the prior position and is considered a
sham. Hayes v. New York City Dep’t. of Corrections, 84
F.3d 614 (2nd Cir. 1996); Perma Research & Dev. Co.
v. Singer Co., 410 F.2d 572 (2d Cir. 1969). The
argument is a sham.
The Officer deviated substantially from standard
police procedures in handling these cases. The
deceased shot the ground twice and the trees twice in
a large empty park when he became enraged after he
was stood up by his on again off again girlfriend.
Shooting a gun off in a park is not a crime in Utica;
they just ask you to leave the park and ticket the
shooter for any violations of state law. No violations of
state law have been alleged. But the facts indicate a
potential mental health issue and a mental health pick
up and evaluation was warranted. Standard police
practice uses an abundance of caution.
The practice is to wait for backup to cover the
potential shooter, then start up a conversation over the
megaphone and get the shooter to drop the gun while
placing yourself in a secure position in the event of
trouble. If he drops the gun, the situation is defused. If
he acts aggressively, then the situation is readily
resolved by the covering officers protecting the officers
and bystanders. You do not under any circumstances
charge solo to the park with a drawn gun shouting
orders at the back of the mental health patient, then

18
shoot at the mental health patient when the mental
health patient turns to see what is happening with the
gun pointed at his abdomen. Then claim that you were
shot at.
The situation also presents an unusual series of
equities regarding the actions of the shooter. The lower
courts claimed that he stood and turned holding a gun.
They did not find any other action by the gun holder.
This action was in compliance with the orders of the
officer. The Deceased had committed no crime at the
start of the incident; the Deceased had the gun pointed
at himself at the time of the shooting and never
pointed it at the officer or anyone else.
The gun was pointed by the deceased at himself at
the time of the shooting per the autopsy report and the
eyewitness Willis. The officer testified he was shot at
by the Defendant, not that he misperceived that the
gun was pointed by the Petitioner.
I can find no case in which a deceased person who was
following the orders of the police officer was shot to
death for following the officer’s orders. There is no
credible proof he was resisting arrest. The deceased was
told to stand. He stood and was shot at. He turned to see
who was yelling. Then he saw the cop, who fired once
and hit the gym. Then he started to remove the gun by
rotating the strap over his head and rotating the gun to
vertical. (Salazar was resisting arrest and fleeing.)
Unlike Salazar in Salazar-Limon v. City of Houston,
137 S. Ct. 1277 (2017), this is not a case of the officer
disagreeing with the arrested, the common fact
pattern that is clogging the courts. In this case the
Decedent is dead and unavailable to testify. But the
officer’s testimony contradicts not just the
eyewitnesses, but the autopsy report which found
shotgun shell wadding, etc. in the deceased’s abdomen.

19
The testimony and objective evidence, including the
officer’s testimony, is that there was only one shot, not
two. There is no proof of two shots.
Jessie was emotionally disturbed at the time of the
incident.
The perception of a threat argument also has another
problem. If the officer had first waited a few seconds for
backup, then used a megaphone and attempted to get
Jessie to drop the gun by asking him, the alleged
perception problems would not have occurred.
A five-minute break should be enough on the facts of
this case.
SECOND AMENDMENT RIGHTS
At this juncture, since no crime was committed, the
issue of mere possession of a gun must also be
considered. It is a constitutional right under the
second amendment and whether that right is being
infringed upon when a gun owner is shot for merely
lawfully possessing a gun.
Note the prior conduct of the Deceased was not a
crime in Utica.
CONFLICTS BETWEEN CIRCUITS
There is also a conflict between the circuits: the
Ninth circuit would have decided this case differently
under Curnow v. Ridgecrest Police, 952 F2d 321 (9th
Cir. 1991) and Deorle v. Rutherford, 272 F3d 1272 (9th
Cir. 2001). This case is repeatedly cited up to now.
There was no effort at pre-shooting workout by
talking, even though there was plenty of time and no
one but the Petitioner was ever threatened by the him
pointing the gun at himself.

20
CONCLUSION
The Officer claims he was shot at, but this is not
supported by the objective evidence in the case. His
testimony should be struck. The claims conflict with
the objective proof in the case.
There was no misperception by the police officer of
the direction the gun barrel was facing. The claim is
completely unsupported by the record, as the officer is
the only person who can testify, and he states that he
was shot at.
The Deceased was shot dead by a police officer who
recklessly entered the park and started shooting when
nobody was threatened, greatly aggravating the
situation. The Deceased merely stood, turned and
started removing the gun in accordance with the
officer’s orders while being shot at by the officer in
violation of his constitutional rights. The Deceased had
violated no law, he had not threatened anyone and was
emotionally disturbed over his girlfriend problems.
The rulings in this case conflict with the rulings in
the ninth circuit.
Wherefore the Petitioner requests that the court
grant certiorari and such other relief as the court
deems just and proper.
Dated: December 23, 2019
Respectfully submitted,
WOODRUFF L. CARROLL
Counsel of Record
WOODRUFF LEE CARROLL P.C.
334 Nottingham Road
Syracuse, New York 13210
(315) 474-5356
carrollcarroll@carrolloffice.com
Counsel for Petitioner

APPENDIX

1a
1a
Appendix A
18-1491-cv
Rose v. City of Utica
UNITED STATES COURT OF APPEALS
FOR THE S ECOND C IRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT
HAVE PRECEDENTIAL EFFECT. CITATION
TO A SUMMARY ORDER FILED ON OR AFTER
JANUARY 1, 2007, IS PERMITTED AND
IS GOVERNED BY FEDERAL RULE OF
APPELLATE PROCEDURE 32.1 AND THIS
COURT’S LOCAL RULE 32.1.1. WHEN CITING
A SUMMARY ORDER IN A DOCUMENT FILED
WITH THIS COURT, A PARTY MUST CITE
EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE (WITH THE
NOTATION “SUMMARY ORDER”). A PARTY
CITING TO A SUMMARY ORDER MUST
SERVE A COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL.
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse,
40 Foley Square, in the City of New York, on the
25th day of September, two thousand nineteen.
PRESENT:
ROBERT A. KATZMANN,
Chief Judge,
RICHARD C. WESLEY,
JOSEPH F. BIANCO,
Circuit Judges.

81228 • CARROLL • APPENDIX A

NP

12/9/20

2a
2a

__________
No. 18-1491-cv

__________
CHRISTINE ALMAS ROSE, individually and as mother
of Jessie Lee Rose, MICHAEL J. ROSE, individually
and as father of Jessie Lee Rose, and
as the administrator of the estate of Jessie Lee Rose,
—v.—

Plaintiffs-Appellants,

CITY OF UTICA, OFFICER ANTHONY
ELLIS, individually and as a police officer
of the City of Utica,
Defendants-Appellees,
UTICA POLICE DEPARTMENT,
Defendant.*

__________
For Plaintiffs-Appellants:
WOODRUFF LEE CARROLL , Woodruff Carroll P.C.,
Syracuse, NY.
For Defendants-Appellees:
Z ACHARY C. O REN , First Assistant Corporation
Counsel, Utica, NY.
*
The Clerk of Court is directed to amend the caption
as shown above.

81228 • CARROLL • APPENDIX A

NP

12/9/20

3a
3a
Appeal from a judgment of the United States
District Court for the Northern District of New York
(Sannes, J.).
UPON DUE CONSIDERATION, IT IS
HEREBY ORDERED, ADJUDGED, AND
DECREED that the judgment of the district court is
AFFIRMED.
Christine and Michael Rose appeal from a
judgment of the United States District Court for the
Northern District of New York (Sannes, J.) entered
in favor of the City of Utica and Officer Anthony Ellis
on April 19, 2018, granting defendants’ motion for
summary judgment and dismissing plaintiffs’ claims
arising under 42 U.S.C. § 1983 in connection with a
police shooting that took place on July 14, 2013. The
district court held in relevant part that it was not
clearly established at the time of the shooting that a
police officer could not lawfully use deadly force
against an armed individual who (1) had reportedly
been firing a shotgun inside a public park, (2) did not
react to an approaching officer’s command to drop his
weapon, and (3) turned toward the officer while still
holding the shotgun in his hands. We assume the
parties’ familiarity with the underlying facts, the
procedural history of the case, and the issues on
appeal.
Qualified immunity protects public officials from
suit under 42 U.S.C. § 1983 unless they have
“violated a statutory or constitutional right that was
clearly established at the time of the challenged
conduct.” City & Cty. of San Francisco, Calif. v.
Sheehan, 135 S. Ct. 1765, 1774 (2015); see also White
v. Pauly, 137 S. Ct. 548, 551 (2017) (per curiam)
(“Qualified immunity attaches when an official’s

81228 • CARROLL • APPENDIX A

NP

12/9/20

4a
4a
conduct does not violate clearly established statutory
or constitutional rights of which a reasonable person
would have known.”). 1 The Fourth Amendment
“guarantees citizens the right to be secure in their
persons against unreasonable seizures,” Graham v.
Connor, 490 U.S. 386, 394 (1989), including the use of
deadly force unless they “pose[] a threat of serious
physical harm” to others, Tennessee v. Garner, 471
U.S. 1, 11 (1985). But while “[t]he right to be free
from the use of excessive force [under the Fourth
Amendment] has long been clearly established,”
Green v. Montgomery, 219 F.3d 52, 59 (2d Cir. 2000),
“[a]n officer cannot be said to have violated a clearly
established right unless the right’s contours were
sufficiently definite that any reasonable official in his
shoes would have understood that he was violating it,
meaning that existing precedent placed the statutory
or constitutional question beyond debate,” Sheehan,
135 S. Ct. at 1774. This standard “gives government
officials breathing room to make reasonable but
mistaken judgments by protecting all but the plainly
incompetent or those who knowingly violate the law.”
Id.
On the undisputed facts, it was objectively
reasonable for Ellis to believe that Rose posed a
threat of serious physical harm to others. Existing
case law supports defendants’ position that an officer
is entitled to use deadly force when an armed
individual fails to comply with an order to put down a
weapon and moves in what the officer reasonably
perceives to be a threatening manner. See, e.g.,
Fortunati v. Campagne, 681 F. Supp. 2d 528, 539 (D.
1

Unless otherwise indicated, in quoting cases, all
internal quotation marks, alterations, footnotes, and
citations are omitted.

81228 • CARROLL • APPENDIX A

NP

12/9/20

5a
5a
Vt. 2009), aff’d sub nom. Fortunati v. Vermont, 503 F.
App’x 78 (2d Cir. 2012) (summary order); Greenwald
v. Town of Rocky Hill, 3:09-cv-211, 2011 WL 4915165,
at *8-9 (D. Conn.
Oct. 17, 2011); see also Sheehan, 135
2
S. Ct. at 1775.
Jessie Rose’s death was a tragedy. But the
question before us is whether, taking the facts in the
light most favorable to the plaintiffs, Officer Ellis
violated clearly established law. He did not.
We have considered all of plaintiffs’ other
contentions on appeal and have found in them no
basis for reversal. For the reasons stated herein, the
judgment of the district court in favor of defendants
is AFFIRMED.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
/s/
[SEAL]

2

Plaintiffs also argue that Ellis did not follow the
police department’s de-escalation policies. But whether Ellis
followed the policies or not is irrelevant to whether, at the
time he fired the shots, Ellis was acting reasonably under
the Constitution. See Salim v. Proulx, 93 F.3d 86, 92 (2d Cir.
1996) (defendant’s “various violations of police procedure . . .
leading up to the shooting are irrelevant to the objective
reasonableness of his conduct at the moment he decided to
employ deadly force”).

81228 • CARROLL • APPENDIX A

NP

12/9/20

1a
6a
Appendix B
UNITED STATES DISTRICT COURT
N ORTHERN D ISTRICT OF N EW Y ORK

__________
6:14-cv-01256 (BKS/TWD)

__________
M ICHAEL J. R OSE , individually and as father of
Jessie Lee Rose, and as the administrator of the
estate of Jessie Lee Rose; and C HRISTINE A LMAS
R OSE , individually and as mother of Jesse Lee
Rose,
Plaintiffs,
—v.—
T HE C ITY OF U TICA ; and O FFICER A NTHONY
E LLIS , individually and as
a police officer of the City of Utica,
Defendants.

__________
APPEARANCES:
For Plaintiffs:
Woodruff Lee Carroll
Carroll & Carroll Lawyers, P.C.
600 East Genesee Street, Suite 108
Syracuse, NY 13202

00000 • CLIENT:Client • APPENDIX part:

xyz 00:00 00/00/07

7a
For Defendants:
Zachary C. Oren
David A. Longeretta
Assistant Corporation Counsel
City of Utica
1 Kennedy Plaza
Utica, NY 13502

Hon. Brenda K. Sannes,
United States District Judge:

MEMORANDUM-DECISION AND ORDER
I.

INTRODUCTION

Plaintiffs Michael J. Rose and Christine Almas
Rose bring this action under 42 U.S.C. § 1983 and
New York law asserting claims arising out of the
July 14, 2013 death of their son, Jessie Lee Rose.
(Dkt. No. 31). On October 23, 2017, Defendants
City of Utica and Anthony Ellis moved for
summary judgment under Rule 56 of the Federal
Rules of Civil Procedure, (Dkt. No. 116), and
moved to preclude Plaintiffs' experts Keith Howse,
Kevin Dix, and Jane Woodruff Carroll from
offering any testimony or opinions, (Dkt. No. 118).
Plaintiff filed several extension requests; the
Court reserved ruling on the last of Plaintiffs'
requests but authorized the submission of a
proposed opposition, (Dkt. No. 128), portions of
which Defendants have sought to seal, (Dkt. No.
145). Oral argument on Defendants' motion for
summary judgment and Plaintiffs' request for a
further extension was held on January 5, 2018.
For the reasons stated below, the Court grants the
request for a further extension and accepts
Plaintiffs' proposed opposition papers, grants the

8a
motion to seal, denies the motion to preclude as
moot, 1 and grants the motion for summary
judgment on qualified immunity grounds.

II. PLAINTIFFS' REQUEST TO EXTEND
TIME TO FILE OPPOSITION
On December 20, 2017, Plaintiffs' counsel filed a
letter in which he acknowledged having missed the
deadline for filing Plaintiffs' opposition to the
motion for summary judgment and the motion to
preclude-a deadline that the Court, on November
7, 2017, had already extended from November 20,
2017 to December 15, 2017, (see Dkt. No. 124)and requested a further filing extension until
December 26, 2017. (Dkt. No. 125). The letter
contains the following explanation:
Apparently, I (or my staff) misread thee-email [sic] and scheduled the wrong return
date for when the papers were due in the
Rose case.
My calendar has the paperwork due on
December 22, 2017.
I just found out that the paperwork was in
fact due on December 15, 2017 and I am
late.

It was physically impossible to complete it
by December 15, 2017.
(Id.). Defendants opposed the further extension,

noting that Rule 6(b)(l) permits extensions of time
for good cause "on motion made after the time has
1
As discussed below, however, the supplemental
affidavit of Kevin Dix, submitted in opposition to the
summary judgment motion, is excluded.

9a
expired if the party failed to act because of
excusable neglect." (Dkt. No. 126, at 2 (quoting
Fed. R. Civ. P. 6(b)(l)). Defendants argued that
Plaintiffs had not made the requisite showing of
excusable neglect. (Id. at 3-4). Without leave of
court, Plaintiffs filed a reply letter, which stated:

There are additional reasons for the brief
not being done. I have had an incredibly
busy fall. There has been elections, a trial,
a nomination for a judgeship, emergency
bankruptcies, in October I had 2-3 things
scheduled almost weekday [sic], a looming
major trial in January[,] and an inquest.
Otherwise I would have this done by now.
Further I have dyslexia and astigmatism
which makes proofreading and certain
tasks like transcribing very difficult. I can
literally read an e-mail and reverse parts
of it or think it reads something it does
not. In this case most likely on[e] date was
read as the other. I also need a new
prescription for my glasses because I am
getting older.
(Dkt. No. 127, at 1-2). By text order dated
December 21, 2017, the Court reserved ruling on
the extension request, gave Plaintiffs permission
to supplement their request with supporting
authorities and to file a proposed opposition to the
pending motions on December 26, 2017, and lastly
scheduled oral argument on the summary
judgment motion and the extension request for
January 5, 2018. (Dkt. No. 128).
Despite these clear instructions, Plaintiffs filed
their supplemental authority in support of the

10a
extension request (Dkt. No. 129) and their
proposed opposition to the pending motions (Dkt.
Nos. 130-138) one day late, on December 27, 2017.
On January 1, 2018, Plaintiffs' counsel submitted
a letter listing the following reasons for the second
delay:
I discussed the filing of the opposition
papers with your clerk who said that the
matter would be dealt with at the hearing
on Friday, But prophalactly Iam explaining what happened.
I would like to move to accept the late
filing.
I worked through the weekend on the
papers non stop.
After working all weekend on the
answering papers, at 3:00 am I tried to file
them. They would not file. The computer
gave me meaningless symbols as the
explanation for not being able to file. I
tried several times. Each try took about a
half hour. On the fourth try I changed
browsers, this time I got an explanation
that one file was too big. (it had a number
of pictures)I split the file in two.It would
still not file. I tried several times several
ways. No explanation was given for the
inability to file. Finally,I broke the file
into units of four. It started filing. Until I
came to a file in the Williams deposition.
This refused to file. I optimized it and it
finally filed. by then it was morning.
(Dkt. No. 141 (typographical errors in original)).
Defendants timely responded to Plaintiffs'

11a
submissions on January 3, 2018. (Dkt. No. 142).
They objected to Plaintiffs' "twice tardy filing,"
arguing that the supplemental authority quoted by
Plaintiffs, United States v. Known Litigation
Holdings, LLC, 518 F. App'x 4 (2d Cir. 2013), did
not excuse Plaintiffs' failure to timely oppose the
motion for summary judgment on December 15,
2017, and that Plaintiffs' "computer failures" did
not excuse the second default on December 26,
2017. (Dkt. No. 142, at9-ll).
Courts assess whether to permit a late filing for
excusable neglect under the four-part test
enunciated in Pioneer Investment Services Co. v.
Brunswick Associates, L.P., 507 U.S. 380 (1993).
See Known Litigation Holdings, 518 F. App'x at 5
("Although Pioneer addressed the meaning of
'excusable neglect' in the context of a bankruptcy
rule, we have applied the standard broadly to
other situations in which a court is authorized to
permit a late filing."). The four factors to be
considered are: (1) "the danger of prejudice to the
[nonmovant]"; (2) "the length of delay and its
potential impact on judicial proceedings"; (3) "the
reason for the delay, including whether it was
within the reasonable control of the movant"; and
(4) "whether the movant acted in good faith."
Pioneer, 507 U.S. at 395. Given that the first two
factors generally favor the moving party and the
absence of good faith is rarely at issue,2 courts
Indeed, in this case, Defendants do not argue that they
have been prejudiced by Plaintiffs' filing defaults, that the delay
has negatively impacted the judicial proceedings, or that
Plaintiffs acted in bad faith. (See Dkt. No. 126, at 3).
Defendants acknowledge that the analysis centers on the
reasons proffered for the delay. (See id.).
2

12a
focus their inquiry on the third factor-the reason
for the delay. See Silivanch v. Celebrity Cruises,
Inc., 333 F.3d 355, 366 (2d Cir. 2003).
Defendants are correct that the Second Circuit
has "taken a hard line" in applying the Pioneer
, test when a party has failed to "follow the clear
dictates of a court rule," id. at 368, and that a
calendaring error by a party's attorney is rarely a
basis for excusable neglect, see Canfield v. Van
Atta Buick/GMC Truck, Inc., 127 F.3d 248, 249
(2d Cir. 1997) (affirming a district court's grant of
summary judgment after plaintiffs counsel failed
to timely oppose a motion for summary judgment
because counsel had been running for elective
office and also mistakenly believed that the
opposition was not due until later); Shervington v.
Village of Piermont, 732 F. Supp. 2d 423, 425
(S.D.N.Y. 2010) ("Law office failure rarely
constitutes an excusable neglect."). Likewise,
technical issues with a filing user's computer
system typically do not constitute excusable
neglect. See Miller v. City of Ithaca, No. 10-cv-597,
2012 WL 1565110, at *2, 2012 U.S. Dist. LEXIS
61708, at *5-6 (N.D.N.Y. May 2, 2012) (rejecting
the plaintiffs late filing of opposition to motion for
summary judgment despite counsel's proffered
reason of "computer errors"). Viewed in light of
this guidance, the reasons advanced by Plaintiffs'
counsel for his late filings-calendaring mistake,
overwork, technical issues, etc.-would ordinarily
not constitute excusable neglect. Nevertheless,
"excusable neglect is an elastic concept, that is at
bottom an equitable one, taking account of all
relevant circumstances surrounding the party's
omission." Tancredi u. Metro. Life Ins. Co., 378

13a
F.3d 220, 228 (2d Cir. 2004). The filing delay at
issue here was minimal, and Defendants were not
prejudiced. At oral argument on January 5, 2018,
Plaintiffs counsel represented to the Court that he
was in the process of installing calendaring
software to avoid making similar errors in the
future and that he would seek remedial assistance
to improve his ECF filing proficiency. Defendants'
counsel indicated that the Court had adequately
addressed the issue. Despite the weakness of
Plaintiffs' reasons for the late filings, the other
factors, including Plaintiffs' counsel's remedial
efforts, suffice in these circumstances to support a
finding of excusable neglect. The Court stresses,
however, that its decision should not be viewed "as
a license to disregard the requirements imposed by
the Federal Rules of Civil Procedure ... [or] the
Local Rules" of the Northern District of New York.
Blandford u. Broome Cty. Gou't, 193 F.R.D. 65, 70
(N.D.N.Y. 2000) (quoting Georgopolous v. Int'l
Bhd. of Teamsters, AFL-CIO, 164 F.R.D. 22; 24
(S.D.N.Y. 1995)).

III. DEFENDANTS' MOTION TO SEAL
As part of their submission in opposition to the
summary judgment motion, Plaintiffs filed a
number of documents relating to Defendant Ellis'
personnel file, (see Dkt. No. 132-3, at 1; Dkt. No.
136, at 54-181), as well as a document containing
personal identifiers, (see Dkt. No. 136-1, at 91). On
December 28, 2017, Defendants filed an
"emergency" letter request to seal or strike the
confidential documents and redact personal
identifiers, arguing that they were filed in
violation of the Confidentiality Order (Dkt. No.

14a
52). (See Dkt. No. 139). At oral argument on
January 5, 2018, the Court granted Defendants
leave to file a motion to seal the documents at
issue and instructed Plaintiffs to refile Dkt. No.
with
personal
identifiers
redacted.
136-1
Defendants filed their unopposed motion to seal
the portions of the record at page 1 of Dkt. No.
132-3 and pages 54 through 181 of Dkt. No. 136 on
January 11, 2018. (Dkt. No. 145).
At common law, there is a presumption of public
access to judicial documents. See Lugosch v.
Pyramid Co. of Onondaga, 435 F.3d 110, 119 (2d
Cir. 2006). Under the common law framework, a
court must first determine whether the documents
at issue are "judicial documents," i.e., items that
are "relevant to the performance of the judicial
function and useful in the judicial process." Id.
(quoting United States v. Amodeo (Amodeo I), 44
F.3d 141, 145 (2d Cir. 1995)). Second, the court
must determine the weight of the common law
presumption of access, which depends on "the role
of the material at issue in the exercise of Article
III judicial power and the resultant value of such
information to those monitoring the federal
courts." Id. (quoting United States v. Amodeo
(Amodeo II), 71 F.3d 1044, 1049 (2d Cir.1995)).
"Generally, the information will fall somewhere on
a continuum from matters that directly affect an
adjudication to matters that come within a court's
purview solely to insure their irrelevance." Id.
(quoting Amodeo II, 71 F.3d at 1049). However, the
weight of the presumption is not a function of the
degree "to which [the documents] were relied upon
in resolving the motion" or of how a particular

15a
claim was decided. Id. at 123. Third, the court
must "balance competing considerations against
it," including but not limited to "the danger of
impairing law enforcement or judicial efficiency"
and "the privacy interests of those resisting
disclosure." Id. at 120 (quoting Amodeo II, 71 F.3d
at 1050).
"In addition to the common law right of access, it
is well established that the public and the press
have a 'qualified First Amendment right to attend
judicial proceedings and to access certain judicial
documents."' Id. (quoting Hartford Courant Co. v.
Pellegrino, 380 F.3d 83, 91 (2d Cir. 2004)). In
Lugosch, the Second Circuit held that "documents
submitted to a court in support of or in opposition
to a motion for summary judgment are judicial
documents to which a presumption of immediate
public access attaches under both the common law
and the First Amendment." Id. at 126; see also id.
at 121 ("Our precedents indicate that documents
submitted to a court for its consideration in a
summary judgment motion are-as a matter of
law-judicial documents to which a strong
presumption of access attaches, under both the
common law and the First Amendment." (emphasis
added)). For a document to be sealed under the
First Amendment framework-which imposes "a
higher burden on the party seeking to prevent
disclosure
than
does
the
common
law
presumption"-there must be "specific, on-therecord findings that sealing is necessary to
preserve higher values and only if the sealing
order is narrowly tailored to achieve that aim." Id.
at 124.

16a

It is uncontested that the documents at issue are
judicial documents. 3 (See Dkt. No. 145, at 2-3).
Further, as the documents were filed in opposition
to a motion for summary judgment, a strong
presumption of public access applies under the
First Amendment framework. The analysis must
therefore focus on whether the preservation of
"higher values" requires sealing and whether the
requested sealing is narrowly tailored to that
objective. Defendants argue that "not sealing the
records will impair the effectiveness of law
enforcement" and "could infringe on the officer's
constitutional rights." (Id. at 3). Defendants contend that making an internal affairs investigation
public, when officers under investigation are
Defendants point out that one of the documents that
Plaintiffs filed (Dkt. No. 136, at 54-181) is a "document dump"
and that Plaintiffs did not specifically cite or rely on it in their
motion papers. (Dkt. No. 145, at 2). That same argument was
advanced and rejected in Prescient Acquisition Grp., Inc. v. MJ
Pub. Tr., 487 F. Supp. 2d 374, 375-76 (S.D.N.Y. 2007), for
reasons the Court finds persuasive and applicable here:
Defendants argue that certain deposition transcripts
which they submitted to the court ought not be
considered judicial documents-or be entitled to only a
weak presumption-because they were not cited to in
their memoranda or Rule 56.1 Statements and were only
included for context. The deposition transcripts which
were submitted are fairly considered part of the record on
the motion and, once submitted, could be relied upon by
either party or the court. Moreover, as long as the legal or
factual issue was raised and the transcript was actually
in the record before this court, it would likely be deemed
fair and appropriate for either side to rely upon it on
appeal. The defendants' first instincts that the full
transcripts would be useful to the court in assessing
whether a triable issue of fact had been raised were not
unreasonable ones.
3

17a
required to give compelled statements protected
under Garrity v. New Jersey, 385 U.S. 493 (1967),
and also given the impression of confidentiality,
could impair law enforcement's ability to conduct
future internal affairs investigations. Upon review
of the specific personnel files sought to be sealed in
this case, the Court finds that they reflect
sensitive information, including information
concerning a confidential Utica Police Department
internal affairs investigation and that disclosure
could impair law enforcement efficiency. See
Dorsett v. County of Nassau, 762 F. Supp. 2d 500,
521 (E.D.N.Y. 2011) (Tomlinson, Mag. J.) (sealing
a police internal affairs unit report documenting a
police department's internal investigation to
protect privacy interests and law enforcement
efficiency), aff'd, 800 F. Supp. 2d 453 (Spatt, J.),
aff'd sub nom. Newsday LLC v. County of Nassau,
730 F.3d 156 (2d Cir. 2013). Further, the Court
finds that the limited sealing of the requested
portion of the two exhibits submitted by Plaintiffs
is a narrowly tailored means of protecting the
integrity of the confidential internal law
enforcement investigation and the privacy of the
individuals who were involved in the investigation.
Cf. Collado v. City of New York, 193 F. Supp. 3d
286, 291-92 (S.D.N.Y. 2016) (sealing internal
police documents because they would "reveal
operational details and other confidential
information about an undercover law enforcement
action"); Hillary v. Village of Potsdam, No. 12-cv1669, 2015 WL 902930, at *4, 2015 U.S. Dist.
LEXIS 25141, at *11-12 (N.D.N.Y. Mar. 3, 2015)
(concluding
that
the
police
investigation
documents at issue should remain under seal
because they contained sensitive information

18a
concerning law enforcement investigative methods
and procedures). Accordingly, the motion to seal is
granted.

IV. DEFENDANTS' MOTION FOR SUMMARY
JUDGMENT
A. Facts 4
On July 14, 2013, around noon, Jessie Lee Rose
("Jessie" or the "individual") was observed
discharging a firearm-which some witnesses
recognized as a shotgun 5-into the air and ground
while walking through a field in Addison Miller
Park, a public park in Utica, New York. 6 (Dkt. No.
116-33, ,i 1; Dkt. 116-5, at 2; Dkt. No. 116-7, at 11,
Defendants filed a statement of material facts (the
"SMF") in support of their motion for summary judgment. (See
Dkt. No. 116-33). Plaintiffs filed a response (titled "Reply to
Statement of Statement of Facts") denying or admitting
assertions in the SMF. (See Dkt. No. 130-2). Additionally,
Plaintiffs filed a "Counter Statement of Facts" setting forth
their version of the events. (See Dkt. No. 130-1). Although this
latter submission does not conform to Local Rule 7.l(a)(3), the
recital of facts presented below is drawn from all three
documents: undisputed material facts supported by the record
are taken from the SMF, whereas disputed material facts
supported by the record are taken from Plaintiffs' submissions.
Further, the recital of facts cites directly to documents in the
record where appropriate.
5
There is no dispute that the firearm that Jessie
possessed was a shotgun whose barrel had been shortened, with
the part of the butt stock removed and some sort of strap affixed
to it. (Dkt. No. 116-33, ,i,i 5, 6). Further, both parties agree that
possession of a shotgun altered in such a way is illegal. (Id.;
Dkt. No. 130-2, ,i 5).
6
Scene processing later confirmed that Jessie discharged
and ejected at least four rounds. (Dkt. No. 116-33, ,i 2).
4

19a
27; Dkt. No. 116-10, at 2; Dkt. No. 116-14, at 2). At
the time, Lonnie Willis was on the park's
basketball courts playing basketball with his son
and daughter. (Dkt. No. 130-1, ,i 7; Dkt. No. 11610, at 2). Mr. Willis' daughter observed Jessie
"racking the shotgun," (Dkt. No. 116-12, at 2), and
Jessie cleared the shotgun of a spent casing after
firing his last shot in the park field, (Dkt. No. 11633, ,i 3; Dkt. No. 130-2, ,i 3). According to Mr.
Willis, he and his children were the only other
people in the park. (Dkt. No. 130-1, ,i 7; Dkt. No.
116-10, at 2). Nevertheless, the shots were heard
or seen not just by Mr. Willis and his children but
also by neighbors in the park's vicinity, including
Thomas and Monica Rabbia, who were in the
driveway of Mr. Rabbia's parents' house, Robert
Maddox, who was gardening, and his wife Deborah
Maddox, who was outside on the porch of their
house. (Dkt. No. 116-5, at 2; Dkt. No. 116-8, at 2;
Dkt. No. 116-10, at 2; Dkt. No. 116-12, at 2; Dkt.
No. 116-13, at 2; Dkt. No. 116-14, at 2; Dkt. No.
116-16, at 18-19).
After witnessing some of these shots, Mr. Willis
and his children left the basketball courts, and Mr.
Rabbia and Mr. Maddox called the police. (Dkt. No.
116-33, ,i,i 7, 23). Mr. Maddox went inside his
home and called the Utica Police Department
station, but no one answered. (Id.; Dkt. No. 116-14,
at 2). Mr. Rabbia "jumped" into the car with his
wife and child, and, as his wife was driving the car
away from the park, called 911. (Dkt. No. 116-5, at
2; see also Dkt. No. 116-33, ,i,i 8-9). Mr. Rabbia
was connected to the Oneida County Dispatch and
stayed with the dispatcher throughout the

20a
incident. 7 (Dkt. No. 116-33, ,i,i 9-10). As a result of
the 911 call, the Oneida County Dispatch sent
Defendant Ellis to the area on a shots-fired call.
(Id. ,i 13). While Defendant Ellis was en route, the
Oneida County Dispatch advised him that there
was a white male in a black shirt firing a shotgun
in Addison Miller Park. (Id. ,i,i 14, 27; Dkt. No.
130-2, ,i 27). The Oneida County Dispatch never
advised him of the direction of the shots. 8 (Dkt. No.
116-33, ,i 15).
While on the phone with the 911 operator, Mr.
Rabbia asked his wife to drive around the block
and go back toward the park. (Id. ,i 16; Dkt. No.
116-7, at 14-15). The Rabbias reached the street
adjoining the park and stopped the car there, but
Mr. Rabbia could not see the individual. 9 (Dkt. No.
116-7, at 15, 30). Mr. Rabbia believed that the
individual had vacated the area. (Id. at 31; Dkt.
No. 116-33, ,i 17). The operator inquired whether
Mr. Rabbia or anyone else was "in immediate
danger." (Dkt. No. 116-7, at 32). Mr. Rabbia
responded, "At the moment, no." (Id.). The 911
Part of the recording of Mr. Rabbia's 911 call is
inaudible. (See Dkt. No. 116-33, ,i 10; Dkt. No. 130-2, ,i 10; Dkt.
No. 116-7 (Deposition Exhibit No. 103) (physically filed)).
8
Nothing in the record suggests that Defendant Ellis
received any information concerning the location of the shots.
(Dkt. No. 116-33, ,i 27; Dkt. No. 130-2, ,i 27).
9
Mr. Rabbia testified that he got out of the car the first
time to see if he could locate the individual. (Dkt. No. 116-7, at
15, 30). It is not clear when Mr. Rabbia returned to the car, but
it appears that he returned within two minutes and exited the
car a second time after Defendant Ellis arrived at the scene
shortly after. (Id. at 17, 30, 32; see also Dkt. No. 116-9, at 237

24).

21a
operator asked Mr. Rabbia if he could see a police
officer approaching, (id. at 15, 32), and "all of a
sudden" Mr. Rabbia saw Defendant Ellis' patrol
car coming toward him, (id. at 15-16; Dkt. No.
116-33, ,i 18). The operator told Mr. Rabbia to
make contact with the officer. (Dkt. No. 116-7, at
16, 32; Dkt. No. 116-33, ,i 19). In his deposition,
Mr. Rabbia described his first contact with
Defendant Ellis as follows:
So I told [the operator] I see him. She
says, flag him down, go to the officer. So I
had my wife pull the car out onto York
Street to basically cut him off. I jumped
out of the car and waved to him. And he
basically said, what's going on? I said,
there is a person in the park with a gun.
He goes, where? I said he was over there.
He goes, where? And I said, I don't know, I
don't see him now, he's over there.
(Dkt. No. 116-7, at 17). Meanwhile, upon seeing
the patrol car, Mr. Willis and his children returned
to the basketball courts. (Dkt. No. 116-33, ,i 24;
Dkt. No. 116-11, at 29-30).
Mr. Maddox saw the patrol car in front of his
house and went outside. (Dkt. No. 116-33, ,i,i 2526; Dkt. No. 116-15, at 20). As Defendant Ellis was
talking to Mr. Rabbia, Mr. Maddox proceeded to
join them. (Dkt. No. 116-33, ,i,i 25-26; Dkt. No.
116-14, at 2; Dkt. No. 116-15, at 23-24). Defendant
Ellis asked where the individual was. (Dkt. No.
116-33, ,i 28). Ms. Maddox, who was standing in
her driveway, could see feet dangling from the
slide in the park's jungle gym, and she pointed it

22a
out to the officer. 10 (Id. ,i 29; Dkt. No. 116-16, at
25-28). Defendant Ellis then proceeded to the
northern entrance to the park and exited his
patrol car. (Dkt. No. 116-33, 11 22).
The parties present diverging narratives of what
happened after Defendant Ellis got out of his car,
but both parties agree that at some point
Defendant entered the park from York Street (the
street adjoining the park) using the northern
gate.11 (See Dkt. No. 116-33, 11 30; Dkt. No. 130-2,
11 30). Defendant Ellis testified that he saw
Mr. Maddox also testified as follows: "I think my wife
saw his feet dangling from here (indicating). And I saw his feet,
I said there he is right there." (Dkt. No. 116-15, at 20).
11
Plaintiffs assert that Defendant Ellis did not "merely
exitD the patrol" but "charged from his patrol car with his gun
drawn and started shooting while yelling and screaming
commands." (Dkt. No. 130-2, ,i 22). There is support for the fact
that, upon exiting his car, Defendant Ellis "charged" with his
gun drawn and told Jessie to drop the shotgun. (See Dkt. No.
116-15, at 25-26 (Mr. Maddox testifying that Defendant Ellis
was "charging," "screaming drop the weapon, drop the weapon,"
and "running toward guy with the gun"); Dkt. No. 116-7, at 19
(Mr. Rabbia testifying that Defendant Ellis took his gun out
"[p]retty much immediately" upon exiting his car)). On the other
hand, Mr. Willis testified that Defendant Ellis started firing
from the road by the rear of his car, not near the gate to the
park. (Dkt. No. 116-11, at 60-61). According to him, Defendant
Ellis was at the back of his car during the whole shooting
incident and did not approach until Jessie lay on the ground.
(Id. at 54, 60-61). Given their admission that Defendant Ellis
entered through the northern gate, Plaintiffs do not seem to
credit Mr. Willis' account of Defendant Ellis' location when the
deadly shot(s) occurred, but they appear to rely on Mr. Willis'
testimony for the timing of the first nondeadly shot(s). (See Dkt.
No. 130-2, ,i 22). In any event, these disputes are immaterial to
the qualified immunity analysis. The record evidence
concerning when Defendant Ellis shot is described further
below. See infra pp. 14-15.
10

23a
someone "either sitting or crouching behind the
furthest end of the jungle gym on the tube side"
and was able to determine that the individual
matched the description given by dispatch, a white
male wearing a black shirt. (Dkt. No. 116-33, ,i 31).
Plaintiffs deny that Defendant Ellis could identify
Jessie when he exited his car because at that time
Jessie was "sitting with his back to the charging
and shooting officer." 12 (Dkt. No. 130-2, ,i 31). In
any event, Plaintiffs admit that "[s]econds later
Ellis was able to identify Jessie because [Ellis] had
charged into the park to the side of the gym." (Dkt.
No. 130-2, ,i 31).
Defendant Ellis testified that he said "show me
your hands" repeatedly as he was walking toward
Jessie. (Dkt. No. 116-33, ,i 33; Dkt. No. 116-19, at
2). Several witnesses testified that they heard
Defendant Ellis issue commands for Jessie to show
his hands or drop his gun before any shooting
began. 13 Plaintiffs deny that there was sufficient
As Plaintiffs provide no record cite for that proposition,
their denial is ineffectual. See L.R. 7.l(a)(3).
13
Per Mr. Rabbia, shots were heard after the officer had
moved onto the playground and told Jessie to drop the gun. (See
Dkt. No. 116-7, at 21-22). Per Mr. Maddox, Defendant Ellis was
"charging," "screaming drop the weapon, drop the weapon," and
"running toward guy with the gun." (Dkt. No. 116-15, at 25-26).
No witness affirmatively testified the shooting started before
the commands. Mr. Willis asserted in his witness statement
that Defendant Ellis commanded Jessie to "Drop the gun and
show me your hands," and that Jessie then "g[o]t up, start[ed] to
walk towards the tree line and then [Jessie] turn[ed] the
shotgun towards his body and fire[d] the shotgun." (Dkt. No.
116- 10, at 2-3). In his deposition, Mr. Willis did not recall if or
when the command to drop the gun was uttered, (Dkt. No. 11611, at 31), but he never testified that the command was not
uttered before the shooting.
12

24a
"time for repeated commands in the three seconds
before Ellis started shooting." 14 But Plaintiffs
concede that Jessie did not react to Defendant
Ellis' commands. (Dkt. No. 130-1, ,i 55).
As Defendant Ellis approached, Jessie stood and
turned, and Defendant Ellis was able to see
Jessie's shotgun. 15 (Dkt. No. 116-33, ,i 35; Dkt. No.
130-2, ,i 35; Dkt. No. 116-20, at 35-36). The parties
Nothing in the record supports that proposition.
Plaintiffs cite Durand Begault's affidavit, which merely states
that "three seconds after a male talker says 'there he is' there is
a probable gun shot" and "there are one or two additional
successive gunshots six seconds after the male ta[l]ker says
'there he is."' (Dkt. No. 135-1, ,i,i 5-6). Mr. Begault did not opine
on the time it takes to make repeated commands or whether the
commands occurred during the referenced six-second period.
Plaintiffs' other citations likewise do not support the proposition
that there was insufficient time.
15
Defendant Ellis testified that he walked a couple of
feet toward Jessie and, at that point, saw the firearm in
Jessie's hands. (Dkt. No. 116-20, at 35-36). Then, according
to his testimony, Defendant Ellis "yelled for [Jessie] to drop
his gun," at which point Jessie "stood up" and turned
clockwise until he faced Defendant Ellis. (Id. at 36-38).
Plaintiffs do not deny this sequence of events; they
acknowledge that Defendant Ellis "would have been able to
see Jessie's gun as Jessie stood and turned." (Dkt. No. 130-2,
,i 35). Plaintiffs deny that there was sufficient time for
Defendant Ellis to command Jessie to drop the gun, (id.
,i 36), but that proposition is not supported by the record, (see
supra notes 13, 14). As discussed below, it is immaterial for
qualified immunity purposes whether Defendant Ellis saw
the shotgun before or while Jessie was turning around to
face him. There is no dispute that Defendant Ellis saw the
shotgun before he fired his first shot. Further, while
Plaintiffs argue that Jessie had the sawed-off shotgun
pointed toward himself when Defendant Ellis fatally shot
him, (Dkt. No. 130-3, at 12; Dkt. No. 130-1, ,r 71), they only
cite to a certain "Ex. 26" for that proposition, but no such
14

25a
disagree about what occurred when Jessie turned
to face Defendant Ellis. Defendant Ellis testified
that Jessie "racked" the shotgun while he was
turning. 16 (Dkt. No. 116-20, at 39). Plaintiffs assert
that "Ellis is lying," but cite no evidence in support
of this assertion. (Dkt. No. 130-2, 11 65). According
to Defendant Ellis, Jessie "discharged a round and
[Defendant Ellis] immediately returned fire." (Dkt.
No. 116-20, at 39-40). By contrast, Plaintiffs
assert, without any citation to the record, that
Defendant Ellis ordered Jessie to drop the gun
and, as Jessie was turning, Defendant Ellis fired a
shot. 17 (Dkt. No. 130-2, 1111 35-36). In any event,
exhibit has been filed with the Court. Defendant Ellis
thought that Jessie's shotgun was pointed at Ellis, (Dkt. No.
116-20, at 40), whereas Mr. Rabbia "couldn't tell" in which
direction the shotgun was pointed, (Dkt. No. 116-7, at 58). In
his witness statement, Mr. Maddox recounted that he heard
"2 or 3 pops" and thought "that was the Officer shooting at
[Jessie]," following which "the man [i.e., Jessie] then
tu[r]ned the gun on himself and shot." (Dkt. No. 116-14). Mr.
Willis' witness statement, on the other hand, describes that
Jessie "g[o]t up, start[ed] to walk towards the tree line and
then he turn[ed] the shotgun towards his body and fire[d] the
shotgun." (Dkt. No. 116-10, at 2-3). Plaintiffs do not rely on
either Mr. Maddox's or Mr. Willis' version of the events, in
which a suicidal Jessie turns the shotgun toward himself and
kills himself. At any rate, these discrepancies are immaterial
because qualified immunity shields Defendant Ellis' actions
after he saw Jessie holding the shotgun, as explained below.
16

Mr. Willis' son averred in his witness statement that, as
Defendant Ellis walked toward the playground area, Jessie
"cock[ed] his shotgun with his back turned to the Officer." (Dkt.
No. 116-13, at 2).
17
It is uncontroverted that Jessie did not actually shoot in
Defendant Ellis' direction, but the parties dispute whether
Defendant Ellis actually or reasonably believed that Jessie's

26a
whether or not Jessie discharged the shotgun
before Defendant Ellis fired his weapon, Jessie
was holding the shotgun with one or two hands
when Defendant Ellis shot. (Dkt. No. 130-1,
6063; Dkt. No. 116-10, 2-3; Dkt. No. 116-11, at 56,
63-64, 66-67 ; Dkt. No. 116-15, at 4 7-48). The
parties agree that Defendant Ellis' first shot hit
the jungle gym. (Dkt. No. 116-33, ,i 44; Dkt. No.
130-2, ,i 35; Dkt. No. 130-1, ,i 67; Dkt. No. 116-20,
at 42). 18

,rn

shotgun pointed in the officer's direction. The Court
acknowledges the dispute and will assume for purposes of this
motion that Defendant Ellis did not perceive that a shot was
fired in his direction or that the shotgun was pointed toward
him. In any event, Kevin Dix, Plaintiffs firearm expert, testified
that the shotgun could have been spun around and fired in less
than a second. (See Dkt. No. 116-18, at 172-73). Although
Plaintiffs now attempt to backtrack from that testimony, (see
Dkt. No. 130-2, ,i 42; Dkt. No. 135-3, at 5), Plaintiffs' denial is
without record support, (see infra Part IV.B).
18
Plaintiffs argue, without citation to any witness
testimony, that, after Defendant Ellis fired his first shot, Jessie
"started removing the gun by rotating the gun and raising his
right hand over his head to clear the strap." (Dkt. No. 130-1, ,i
68). Plaintiffs cite to Mr. Rabbia's deposition and Defendant
Ellis' deposition. (Dkt. No. 130-1, ,i 68). But Mr. Rabbia never
testified that Jessie was in the process of "removing the gun" or
"raising his right hand over his head to clear the strap." (Id.).
Mr. Rabbia testified that "the last thing I saw Jessie do was
stand up and start moving the gun around" and that the gun
was "[r]otated 90 degrees from horizontal to vertical." (Dkt. No.
116-7, ,i 67). Further, the Court could not find any reference in
Defendant Ellis' deposition to Jessie's purported attempt to
remove the gun. Nevertheless, it is undisputed that, after Jessie
fell to the ground, Defendant Ellis approached and kicked the
shotgun away from Jessie. (Dkt. No. 116-33, ,i 55). Viewing that
fact in the light most favorable to Plaintiffs, the Court infers
that the gun was no longer strapped to Jessie by the time he
landed on the ground. While such an inference may support

27a
The parties agree that Defendant Ellis shot a
second time shortly after the first shot that hit the
jungle gym. (Dkt. No. 116-33, 11 50; Dkt. 130-2, 11
50; Dkt. No. 130-1, 11 75; Dkt. No. 116-20, at 4 7)
(Defendant Ellis testifying that "I fired my second
round almost immediately")). Defendant Ellis'
second shot entered the dorsal side of Jessie's left
hand and exited on the palm side. (Dkt. No. 11633, 11 44; Dkt. No. 130-2, 11 44). Relying on the
op1mon of his proposed expert Kevin Dix,
Plaintiffs theorize that this second shot caused a
"sympathetic nerve response," causing Jessie's
right hand "to move/jerk setting off the [shot]gun
or the [shot]gun to move and go off." (Dkt. No. 1302, 11 77). In sum, whereas Defendants contend that
Jessie discharged the shotgun. first, followed by
Defendant Ellis' two gunshots, (Dkt. No. 116-33,
11 50), Plaintiffs assert that Defendant Ellis fired
his gun twice and that the second shot caused
Jessie to discharge the shotgun, (Dkt. No. 130-2,
11 77). This difference is immaterial to the qualified
immunity analysis.
Regardless of the sequence of the gunshots, both
parties agree that when the second bullet struck
Jessie's left hand, Jessie dropped the shotgun and
fell to the ground. (Dkt. No. 116-33, 11 53).
Defendant Ellis then approached Jessie, kicked off
the shotgun away from Jessie, secured him in
handcuffs, patted him down for any other
weapons, called for backup and emergency medical
services, and stood guard until backup arrived.
Plaintiffs' after-the-fact assessment that Jessie was in the
process of removing the gun when he was shot, a determination
of qualified immunity must be made based upon the facts
knowable to Defendant Ellis at the time of the shooting.

28a
(Id. ,i 55). Officer Brian French arrived at the
scene next and discovered that Jessie had a
shotgun wound. (Id. ,i 56-58). Emergency medical
services transported Jessie to a hospital, where he
later succumbed to his injuries. (Id. ,i 60). The
autopsy revealed that Jessie died of a shotgun
wound to the abdomen. (Id. ,i 61).

B. Motion to Preclude
Defendants move to preclude as unreliable the
entirety of Keith Howse's expert testimony, part of
Kevin Dix's expert testimony, and the entirety of
Jane Carroll's expert testimony under Federal
Rule of Evidence 702. (Dkt. No. 118). Through an
attorney affidavit, 19 Plaintiffs oppose the motion to
preclude the expert testimonies of Howse and Dix
but withdraw Jane Carroll's expert report. (Dkt.
No. 138).
Plaintiffs retained Howse, a former police officer
and attorney licensed to practice law in Texas, to
"evaluate the actions of Utica Police Officer
Anthony Ellis and the Utica Police Department to
determine whether their conduct and interaction
with Mr. Jessie Rose was performed in a
reasonable manner" and whether these actions, as
well as the Police Department's training and
policies, "violated any professional standards of
care." (Dkt. No. 116-21, at 467, 477-79).
Defendants argue that Howse's report and
testimony "should be excluded in toto, as Howse
has eschewed consideration of industry standards
in forming his opinion, and instead bases his
19

Plaintiffs did not file a memorandum of law in
opposition to the motion to preclude.

29a
op1mons on his own limited,
subjective,
experiences" and because "his opinions are based
on misapprehensions of facts in the record." (Dkt.
No. 118-3, at 15). Instead of squarely addressing
Defendants' foundational challenges to Howse's
opinion, Plaintiffs' opposition mostly reiterates the
points made in Howse's report. (See Dkt. No. 138,
,i,i 25-34). Given its ruling on the qualified
immunity question, however, the Court need not
decide this evidentiary dispute. Howse's testimony
concerning whether Defendant Ellis' conduct was
reasonable
and
conformed to
professional
standards of care would be relevant to determining
whether Defendant Ellis used excessive force in
violation of J essie's constitutional rights, but it
has no bearing on whether it was clearly
established at the time that the conduct at issue
violated the law. See, e.g., City & Cty. of San
Francisco v. Sheehan, 135 S. Ct. 1765, 1777 (2015)
(noting that, "so long as a reasonable officer could
have believed that his conduct was justified, a
plaintiff cannot avoi[d] summary judgment by
simply producing an expert's report than an officer's
conduct leading up to a deadly confrontation was
imprudent, inappropriate, or even reckless"
(alteration in original) (internal quotation marks
omitted)). As discussed below, the parties have not
cited-and the Court has not found-any clearly
established authority indicating that Ellis' conduct
was unlawful. Because Howse's testimony is
immaterial to disposition of this case, the Court
need not consider it.
Plaintiffs retained Dix, a retired police officer,
firearm instructor, licensed gunsmith, and
licensed firearms dealer, to testify about Jessie's

30a
shotgun, the ammunition that Jessie had loaded in
the gun, the shots at the scene, and Dix's opinion
about the circumstances leading up to Jessie's
death. (Dkt. No. 116-18, at 194-201; Dkt. No. 138,
,i 5). Defendants seek to exclude the portions of
Dix's report containing his conclusions that: (1)
Jessie did not rack the shotgun when he was
sitting on the slide in the park because no spent
casing was found in that area; (2) Jessie had the
shotgun pointed toward himself when he turned to
face Defendant Ellis and "may have been removing
it" as "the gun was in a position consistent with
removing the strap from his shoulder"; and (3)
Jessie shot himself as a result of a sympathetic
nerve response as a result of being shot in the
hand by Defendant Ellis. (Dkt. No. 118-3, at 3, 6;
Dkt. No. 116-18, at 197). Defendants argue that:
(1) Dix failed to consider the possibility that Jessie
could have ejected the spent casing in a different
area than where he chambered the round that
killed him; (2) Dix's opinion concerning the strap
and the position of the shotgun is speculative; and
(3) Dix is not qualified to opine on sympathetic
nerve response. (Id. at 7-12). None of these
disputed facts, however, matter to the qualified
immunity analysis set forth below. Even if Jessie
had not racked the gun while sitting on the slide,
kept the shotgun pointed toward himself when he
faced Defendant Ellis, and shot himself as a result
of a Defendant Ellis' bullet triggering a sympathetic
nerve response, Defendant Ellis would still be
entitled to qualified immunity. As discussed, there
is no clearly established law putting a reasonable
police officer on notice about the lawful use of
deadly force in a situation such as this, where an
armed individual who had been shooting in a

31a
public park was holding onto a shotgun when he
faced the officer that shot him. Because the Court
need not decide whether Dix's op1mon is
unreliable, Defendants' motion to preclude Dix's
report is denied as moot.
Plaintiffs, however, submitted a supplemental
affidavit by Dix in opposition to the motion for
summary judgment, which added new, unsupported
opinions. (Dkt. No. 135-3, at 5 ("Rotating the gun
from pointing away to point at one self is very
difficult and not likely with the sling attached.");
id. ("Even if done to [sic] properly it would be
impossible to engage the sights and accurately fire
Jessie Rose's gun in question at anything, because
he is shooting from the hip up to 20 yards.")).
Plaintiffs' attempt to insert entirely new expert
opinion at this stage of the case is untimely. See
Coene v. 3M Co., 303 F.R.D. 32, 44 (W.D.N.Y.
2014) (excluding expert's new opinion as untimely
disclosed). Further, the Court finds that the
statements in the supplemental affidavit fail to
constitute admissible expert opinion under Rule
702 of the Federal Rules of Evidence. There is
nothing in the supplemental affidavit to indicate
that Dix's conclusory opinions are based on
sufficient facts or data, are the product of reliable
principles and methods, or reflect a reliable
application of the principles and methods to the
facts of this case. See Fed. R. Evid. 702; Daubert v.
Merrell Dow Pharmaceuticals, Inc., 509 U.S. 579
(1993) (holding that a judge must ensure "that an
expert's testimony both rests on a reliable
foundation and is relevant to the task at hand");
Restivo v. Hessemann, 846 F.3d 547, 575-76 (2d
Cir. 2017) ("Under Daubert, factors relevant to

32a
determining reliability include the theory's
testability, the extent to which it has been subjected
to peer review and publication, the extent to which
a technique is subject to standards controlling the
technique's operation, the known or potential rate
of error, and the degree of acceptance within the
relevant scientific community." (internal quotation
marks omitted)). Dix's supplemental affidavit is
therefore excluded.

C. Standard of Review on Summary
Judgment
Under Federal Rule of Civil Procedure 56(a),
summary judgment may be granted only if all the
submissions taken together "show that there is no
genuine issue as to any material fact and that the
moving party is entitled to judgment as a matter of
law." Celotex Corp. v. Catrett, 477 U.S. 317, 322
(1986); see also Anderson v. Liberty Lobby, Inc.,
4 77 U.S. 242, 24 7-48 (1986). The moving party
bears the initial burden of demonstrating "the
absence of a genuine issue of material fact."
Celotex, 4 77 U.S. at 323. A fact is "material" if it
"might affect the outcome of the suit under the
governing law," and is genuinely in dispute "if the
evidence is such that a reasonable jury could
return a verdict for the nonmoving party."
Anderson, 4 77 U.S. at 248; see also Jeffreys v. City
of New York, 426 F.3d 549, 553 (2d Cir. 2005)
(citing Anderson). The movant may meet this
burden by showing that the nonmoving party has
"fail[ed] to make a showing sufficient to establish
the existence of an element essential to that
party's case, and on which that party will bear the
burden of proof at trial." Celotex, 4 77 U.S. at 322;

33a

see also Selevan v. N. Y. Thruway Auth., 711 F.3d
253, 256 (2d Cir. 2013) (summary judgment
appropriate where the nonmoving party fails to
'"come forth with evidence sufficient to permit a
reasonable juror to return a verdict in his or her
favor on' an essential element of a claim" (quoting
In re Omnicom Grp., Inc. Sec. Litig., 597 F.3d 501,
509 (2d Cir.2010))).
If the moving party meets this burden, the
nonmoving party must "set out specific facts
showing a genuine issue for trial." Anderson, 4 77
U.S. at 248, 250; see also Celotex, 477 U.S. at 32324; Wright v. Goard, 554 F.3d 255, 266 (2d Cir.
2009). "When ruling on a summary judgment
motion, the district court must construe the facts
in the light most favorable to the non-moving
party and must resolve all ambiguities and draw
all reasonable inferences against the movant."
Dallas Aerospace, Inc. v. CIS Air Corp., 352 F.3d
775, 780 (2d Cir. 2003). Still, the nonmoving party
"must do more than simply show that there is
some metaphysical doubt as to the material facts,"
Matsushita Elec. Indus. Co. v. Zenith Radio Corp.,
4 75 U.S. 57 4, 586 (1986), and cannot rely on "mere
speculation or conjecture as to the true nature of
the facts to overcome a motion for summary
judgment." Knight v. U.S. Fire Ins. Co., 804 F.2d 9,
12 (2d Cir.1986) (quoting Quarles v. Gen. Motors
Corp., 758 F.2d 839, 840 (2d Cir. 1985)).
Furthermore, "[m]ere conclusory allegations or
denials ... cannot by themselves create a genuine
issue of material fact where none would otherwise
exist." Hicks v. Baines, 593 F.3d 159, 166 (2d Cir.
2010) (quoting Fletcher v. Atex, Inc., 68 F.3d 1451,
1456 (2d Cir. 1995)).

34a
D. Discussion
1. § 1983 Claim Against Defendant Ellis

Plaintiffs claim that Defendant Ellis is liable
under § 1983 for using excessive force when he
shot Jessie on July 14, 2013. Defendants move for
summary judgment on Plaintiffs' excessive force
claim, arguing that the use of deadly force was
reasonable under the circumstances, and further
that Defendant Ellis is entitled to qualified
immunity. (Dkt. No. 116-34, at 5-28). Plaintiffs
respond that "the objective facts" indicate that
Jessie posed no threat to Defendant Ellis or others,
and that, in those circumstances, it was not
reasonable for Defendant Ellis to shoot Jessie.
(Dkt. No. 130-2, at 15-19). Further, Plaintiffs
argue that Defendant Ellis is not entitled to
qualified immunity because he "knew from his
training what he was supposed to do"-i.e., not
shoot a nonthreatening individual who "was either
committing suicide or removing the gun" as
instructed. (Id. at 19-20). As discussed below, the
Court concludes that Defendant Ellis is entitled to
qualified immunity because his actions did not
violate clearly established law; therefore, the
Court does not reach the issue of whether
Defendant Ellis used reason·able force in the
circumstances. See Pearson v. Callahan, 555 U.S.
223, 236 (2009) (holding that courts need not
determine whether a case's facts make out a
violation of a constitutional right prior to
examining whether the right at issue was "clearly
established" at the time of the defendant's
conduct).
"Qualified immunity attaches when an official's
conduct does not violate clearly established

35a
statutory or constitutional rights of which a
reasonable person would have known." Kisela v.
Hughes, No. 17-467, 2018 WL 1568126, at *2, 2018
U.S. LEXIS 2066, at *5-6 (U.S. Apr. 2, 2018) (per
curiam) (quoting White v. Pauly, 137 S. Ct. 548,
551 (2017)). "Because the focus is on whether the
officer had fair notice that her conduct was
unlawful, reasonableness is judged against the
backdrop of the law at the time of the conduct." Id.
(quoting Brosseau v. Haugen, 543 U.S. 194, 198
(2004)). An officer "cannot be said to have violated
a clearly established right unless the right's
contours were sufficiently definite that any
reasonable official in the defendant's shoes would
have understood that he was violating it."
Plumhoff v. Rickard, 134 S. Ct. 2012, 2023 (2014).
While there need not be "a case directly on point
for a right to be clearly established, existing
precedent must have placed the statutory or
constitutional question beyond debate." Kisela,
2018 WL 1568126, at *2, 2018 U.S. LEXIS 2066, at
*5-6 (quoting White, 137 S. Ct. at 551). Further,
the Supreme Court has "repeatedly told courts ...
not to define clearly established law at a high level
of generality." Sheehan, 135 S. Ct. at 1775-76
(quoting Ashcroft v. al-Kidd, 563 U.S. 731, 742
(2011)). "[S]pecificity is especially important in the
Fourth Amendment context, where the Court has
recognized that it is sometimes difficult for an
officer to determine how the relevant legal
doctrine, here excessive force, will apply to the
factual situation the officer confronts." Kisela,
2018 WL 1568126, at *3, 2018 U.S. LEXIS 2066, at
*6-7 (quoting Mullenix v. Luna, 136 S. Ct. 305,
308 (2015)). Qualified immunity thus "protects
'all but the plainly incompetent or those who

36a
knowingly violate the law."' Mullenix, 136 S. Ct. at
308 (quoting Malley v. Briggs, 4 75 U.S. 335, 341
(1986)).
The facts in this case, viewed in the light most
favorable to Plaintiffs, 20 present the following
question: whether it was clearly established, on
July 14, 2013, that a police officer could not
lawfully use deadly force in a situation where an
armed individual had reportedly been firing a
shotgun inside a public park, did not react to the
approaching officer's command to drop the
shotgun, and turned toward the officer while
holding the shotgun in his hands. The Court is
aware of no authority, much less "clearly
established" authority, holding that such conduct
would violate the Fourth Amendment.
The only case that Plaintiffs cite in this
connection is O'Bert ex rel. Estate of O'Bert v.

°

2
For purposes of the qualified immunity analysis, only
the facts known to the defendant officer are relevant. See Salim
v. Proulx, 93 F.3d 86, 92 (2d Cir. 1996) ("The reasonableness
inquiry depends only upon the officer's knowledge of
circumstances immediately prior to and at the moment that he
made the split-second decision to employ deadly force.").
Therefore, while the Court accepts Plaintiffs' version of the facts
insofar as it is supported by the record evidence, and views all of
the facts in the light most favorable to the Plaintiffs, the Court
only considers those circumstances that were knowable to
Defendant Ellis. See White, 137 S. Ct. at 550. It was not
knowable to Ellis, for example, that Jessie was, as Plaintiffs
argue, "emotionally disturbed," with no "desire to hurt anyone."
(Dkt. No. 130-3, at 4). Ellis was dispatched on a shots-fired call;
dispatch told Ellis that there was a white male in a black shirt
firing a shotgun in Addison Miller Park. (Dkt. No. 116-33, ,i,i 14,
27; Dkt. No. 130-2, ,i 27). There is no evidence Ellis was told of
the location of the shots Jessie fired before Ellis arrived. Id.

37a

Vargo, 331 F.3d 29, 34 (2d Cir. 2003), a case in
which an unarmed man was shot when police
officers entered his trailer and attempted to arrest
him. The Second Circuit reiterated the general
rule, expounded by the Supreme Court in
Tennessee v. Garner, 4 71 U.S. 1 (1985), and
Graham v. Connor, 490 U.S. 386 (1989), that "[i]t
is not objectively reasonable for an officer to use
deadly force to apprehend a suspect unless the
officer has probable cause to believe that the
suspect poses a significant threat of death or
serious physical injury to the officer or others."
O'Bert, 331 F.3d at 36. Applying this rule to the
"plaintiffs version of the facts, in which [the
defendant] shot to kill [the plaintiff] while
knowing that [the plaintiff] was unarmed," the
court concluded that "it is obvious that no
reasonable officer would have believed that the use
of deadly force was necessary." Id. at 40.
O'Bert, however, does not help Plaintiffs. To the
extent that they rely on the general formulation of
the Garner/Graham rule that an officer may use
deadly force only if there is a significant threat of
death or serious physical injury to the officer or
others, their reliance is unavailing, as "general
statements of the law are not inherently incapable
of giving fair and clear warning to officers ... [and]
the general rules set forth in Garner and Graham
do not by themselves create clearly established law
outside an obvious case." Kisela, 2018 WL
1568126, at *3, 2018 U.S. LEXIS 2066, at *7
(internal quotation marks omitted). O'Bert is
likewise unhelpful to the extent Plaintiffs rely on
its particular fact pattern, as it is not analogous to
the facts presented here. Crucially, the person shot

38a
in O'Bert was unarmed. See 331 F.3d at 34; cf.
Estate of Devine, 676 F. App'x 61, 63 (2d Cir. 2017)
(remarking that the estate's argument "minimizes
the critical fact of [the decedent] being armed with
a deadly weapon," and noting that, "[w]hile the
Estate maintains that [the decedent] never
intended to harm anyone other than himself, the
possession of a firearm is nevertheless a volatile
circumstance, made all the more so by [the
decedent's] refusal to surrender it and, thus,
relevant to whether it was objectively reasonable
for Defendants to believe that their actions were
lawful").
That situation is a far cry from the events that
unfolded in this case, where, an armed individual
who had been shooting in a public park was
holding onto a shotgun when he faced the officer
that shot him. O'Bert does not speak at all to the
scenario encountered by Defendant Ellis, and the
Court has not been made aware of any clearly
established authority holding that the conduct at
issue in this case was unlawful. On the contrary,
courts have found qualified immunity in situations
involving armed individuals. See Fortunati v.
Campagne, 681 F. Supp. 2d 528, 541 (D. Vt. 2009)
(granting qualified immunity to officers who shot
an armed man with nonlethal beanbag rounds and
with lethal force after the armed man responded
by pulling a gun from his waistband), aff'd sub
nom. Fortunati v. Vermont, 503 F. App'x 78 (2d
Cir. 2012); Greenwald v. Town of Rocky Hill, No.
09-cv-211, 2011 WL 4915165, at *8, 2011 U.S.Dist.
LEXIS 119331, at *23-24 (D. Conn. Oct. 17, 2011)
(granting qualified immunity to officer that shot a
plaintiff who was holding a rifle). Indeed, there is

39a
no requirement under existing law that an officer
wait for an active shooter to shoot first. See White,
137 S. Ct. at 552-53 (holding that an officer who
shot an armed occupant of a house without first
g1v1ng a warning was entitled to qualified
immunity). In this case, Defendant Ellis had to
make a split-second decision regarding an active
shooter holding a shotgun, and Plaintiffs have
failed to identify any authority clearly establishing
that his decision to shoot violates the Fourth
Amendment. Accordingly, the Court concludes that
Defendant Ellis is entitled to qualified immunity
and that summary judgment must be granted in
his favor on the excessive force claim.

2. Monell Claim
The Third Amended Complaint asserts a claim of
municipal liability-a so-called Monell claim 21against Defendant City of Utica for its alleged
failure to train its officers in handling "potential
suicide cases." (Dkt. No. 31, ,i,i 131; see also id.
,i,i 132-136). Defendant moved for summary
judgment on that claim, arguing that "Plaintiffs
have failed to identify any defects in [Defendant
Ellis'] training." (Dkt. No. 116-34, at 31). As
Defendants note in their reply brief, Plaintiffs
failed to respond to Defendants' argument. (Dkt.
No. 142, at 11-12). At oral argument on January 5,
2018, Plaintiffs' counsel acknowledged that they
were no longer pursuing the Monell claim.
Accordingly, summary judgment is granted for
Defendants on the Monell claim.
21
Such claims are named after the Supreme Court case
that allowed recovery against municipalities under § 1983 in
certain circumstances. See Monell u. Dep't of Soc. Serus., 436
U.S. 658 (1978).

40a

3. State Law Claims
As Plaintiffs have no remaining federal claims,
and given the absence of any extraordinary
circumstances, the Court declines to exercise
supplemental jurisdiction over their state law
claims. See 28 U.S.C. § 1367(c)(3); Carnegie-Mellon
Univ. v. Cohill, 484 U.S. 343, 350 n. 7 (1988)
(stating that, "in the usual case in which all
federal-law claims are eliminated before trial, the
balance of factors to be considered under the
pendent jurisdiction doctrine ... will point toward
declining to exercise jurisdiction over the
remaining state-law claims").

CONCLUSION
For these reasons, it is hereby

ORDERED that Plaintiffs' request (Dkt. No.
125) for an extension to file his opposition to
Defendants' motion for summary judgment and
motion to preclude Plaintiffs' expert witnesses is
GRANTED, and Plaintiffs' proposed opposition
papers (Dkt. Nos. 130-138) are deemed accepted;
and it is further
ORDERED that Defendants' motion to seal
(Dkt. Nos. 139 and 145) is GRANTED; and it is
further
ORDERED that Defendants' motion to preclude
Plaintiffs' expert witnesses (Dkt. No. 118) is
DENIED as moot, but Dix's supplemental
affidavit (Dkt. No. 135-3, at 5) is excluded; and it
is further
ORDERED that Defendants' motion for
summary judgment (Dkt. No. 116) is GRANTED

41a
in accordance with this Memorandum-Decision
and Order; and it is further
ORDERED that the federal claims asserted in
the Third Amended Complaint (Dkt. No. 31) are
DISMISSED with prejudice; and it is further
ORDERED that the remaining claims asserted
in the Third Amended Complaint (Dkt. No. 31) are
DISMISSED for lack of subject-matter jurisdiction.
�

IT IS SO ORDERED.
Dated: April 19, 2018
Syracuse, New York
/s/
Brenda K. Sannes
U.S. District Judge

1a
42a
Appendix C
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
JUDGMENT IN A CIVIL CASE

__________
Case No. 6:14-CV-1256 (BKS/TWD)

__________
M ICHAEL J. R OSE , individually and as father of
Jessie Lee Rose, and as the administrator of the estate
of Jessie Lee Rose; and C HRISTINE ALMAS R OSE ,
individually and as mother of Jessie Lee Rose,
—v.—

Plaintiffs,

THE CITY OF UTICA; and OFFICER ANTHONY
ELLIS, individually and as a police officer
of the City of Utica,
Defendants.

__________
Decision by Court. This action came to trial or
hearing before the Court. The issues have been tried
or heard and a decision has been rendered.
IT IS ORDERED AND ADJUDGED that
Defendants’ Motion for Summary Judgment is
GRANTED. The federal claims asserted in Plaintiffs’
Third Amended Complaint are DISMISSED with

00000 • CLIENT:Client • APPENDIX part:

xyz 00:00 00/00/07

2a
43a
prejudice and the remaining claims asserted in
Plaintiffs’ Third Amended Complaint are
DISMISSED for lack of subject-matter jurisdication.
All in accordance with the Order of the Honorable
Brenda K. Sannes dated April 19, 2018.
Dated: April 19, 2018

/s/ Lawrence K. Baerman
Clerk of Court
/s/ Renalta Hohl
Renalta Hohl
Deputy Clerk

00000 • CLIENT:Client • APPENDIX part:

xyz 00:00 00/00/07

1a
44a
Appendix D
Constitution of the United States of America
Fourth Amendment
The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated, and no
Warrants shall issue, but upon probable cause,
supported by Oath or affirmation, and particularly
describing the place to be searched, and the persons
or things to be seized.
42 USC 1983
§ 1983. Civil action for deprivation of rights
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State
or Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United
States or other person within the jurisdiction thereof
to the deprivation of any rights, privileges, or
immunities secured by the Constitution and laws,
shall be liable to the party injured in an action at
law, suit in equity, or other proper proceeding for
redress, except that in any action brought against a
judicial officer for an act or omission taken in such
officer’s judicial capacity, injunctive relief shall not
be granted unless a declaratory decree was violated
or declaratory relief was unavailable. For the
purposes of this section, any Act of Congress
applicable exclusively to the District of Columbia
shall be considered to be a statute of the District of
Columbia.

81228 • CARROLL:Client • APPENDIX part: D

NP 00:00 12/19/19

2a
45a
New York Penal Code
§ 35.30. Justification; use of physical force in
making an arrest or in preventing an escape
1. A police officer or a peace officer, in the course of
effecting or attempting to effect an arrest, or of
preventing or attempting to prevent the escape from
custody, of a person whom he or she reasonably
believes to have committed an offense, may use
physical force when and to the extent he or she
reasonably believes such to be necessary to effect the
arrest, or to prevent the escape from custody, or in
self-defense or to defend a third person from what he
or she reasonably believes to be the use or imminent
use of physical force; except that deadly physical
force may be used for such purposes only when he or
she reasonably believes that:
(a) The offense committed by such person was:
(i) a felony or an attempt to commit a felony
involving the use or attempted use or threatened
imminent use of physical force against a person; or
(ii) kidnapping, arson, escape in the first degree,
burglary in the first degree or any attempt to commit
such a crime; or
(b) The offense committed or attempted by such
person was a felony and that, in the course of
resisting arrest therefor or attempting to escape from
custody, such person is armed with a firearm or
deadly weapon; or
(c) Regardless of the particular offense which is the
subject of the arrest or attempted escape, the use of
deadly physical force is necessary to defend the police
officer or peace officer or another person from what

00000 • CLIENT:Client • APPENDIX part:

xyz 00:00 00/00/07

3a
46a
the officer reasonably believes to be the use or
imminent use of deadly physical force.
2. The fact that a police officer or a peace officer is
justified in using deadly physical force under
circumstances prescribed in paragraphs (a) and (b) of
subdivision one does not constitute justification for
reckless conduct by such police officer or peace officer
amounting to an offense against or with respect to
innocent persons whom he or she is not seeking to
arrest or retain in custody.
3. A person who has been directed by a police officer
or a peace officer to assist such police officer or peace
officer to effect an arrest or to prevent an escape from
custody may use physical force, other than deadly
physical force, when and to the extent that he or she
reasonably believes such to be necessary to carry out
such police officer’s or peace officer’s direction, unless
he or she knows that the arrest or prospective arrest
is not or was not authorized and may use deadly
physical force under such circumstances when:
(a) He or she reasonably believes such to be
necessary for self-defense or to defend a third person
from what he or she reasonably believes to be the use
or imminent use of deadly physical force; or
(b) He or she is directed or authorized by such police
officer or peace officer to use deadly physical force
unless he or she knows that the police officer or peace
officer is not authorized to use deadly physical force
under the circumstances.
4. A private person acting on his or her own account
may use physical force, other than deadly physical
force, upon another person when and to the extent
that he or she reasonably believes such to be

00000 • CLIENT:Client • APPENDIX part:

xyz 00:00 00/00/07

4a
47a
necessary to effect an arrest or to prevent the escape
from custody of a person whom he or she reasonably
believes to have committed an offense and who in
fact has committed such offense; and may use deadly
physical force for such purpose when he or she
reasonably believes such to be necessary to:
(a) Defend himself, herself or a third person from
what he or she reasonably believes to be the use or
imminent use of deadly physical force; or
(b) Effect the arrest of a person who has committed
murder, manslaughter in the first degree, robbery,
forcible rape or forcible criminal sexual act and who
is in immediate flight therefrom.
5. A guard, police officer or peace officer who is
charged with the duty of guarding prisoners in a
detention facility, as that term is defined in section
205.00, or while in transit to or from a detention
facility, may use physical force when and to the
extent that he or she reasonably believes such to be
necessary to prevent the escape of a prisoner from a
detention facility or from custody while in transit
thereto or therefrom.
§ 35.15. Justification; use of physical force in
defense of a person.
1. A person may, subject to the provisions of
subdivision two, use physical force upon another
person when and to the extent he or she reasonably
believes such to be necessary to defend himself,
herself or a third person from what he or she
reasonably believes to be the use or imminent use of
unlawful physical force by such other person, unless:

00000 • CLIENT:Client • APPENDIX part:

xyz 00:00 00/00/07

5a
48a
(a) The latter’s conduct was provoked by the actor
with intent to cause physical injury to another
person; or
(b) The actor was the initial aggressor; except that in
such case the use of physical force is nevertheless
justifiable if the actor has withdrawn from the
encounter and effectively communicated such
withdrawal to such other person but the latter
persists in continuing the incident by the use or
threatened imminent use of unlawful physical force;
or
(c) The physical force involved is the product of a
combat by agreement not specifically authorized by
law.
2. A person may not use deadly physical force upon
another person under circumstances specified in
subdivision one unless:
(a) The actor reasonably believes that such other
person is using or about to use deadly physical force.
Even in such case, however, the actor may not use
deadly physical force if he or she knows that with
complete personal safety, to oneself and others he or
she may avoid the necessity of so doing by retreating;
except that the actor is under no duty to retreat if he
or she is:
(i) in his or her dwelling and not the initial
aggressor; or
(ii) a police officer or peace officer or a person
assisting a police officer or a peace officer at the
latter’s direction, acting pursuant to section 35.30; or
(b) He or she reasonably believes that such other
person is committing or attempting to commit a

00000 • CLIENT:Client • APPENDIX part:

xyz 00:00 00/00/07

6a
49a
kidnapping, forcible rape, forcible criminal sexual act
or robbery; or
(c) He or she reasonably believes that such other
person is committing or attempting to commit a
burglary, and the circumstances are such that the
use of deadly physical force is authorized by
subdivision three of section 35.20.
Utica City Ordinances
Sec. 2-18-36 Discharging rifles, fi rearms or
slingshots; throwing missiles; hitting golf balls.
[Code 1964, § 18-2]
No person shall carry or discharge an air rifle,
firearm, air gun or slingshot or throw stones or other
missiles within the limits of any public park,
playground or other recreation area. No person shall
hit a golf ball or other missile within the limits of any
park, playground or other recreation area other than
in areas designated by the Commissioner of Parks
and Recreation
Sec. 2-18-46 Enforcement of provisions. [Ord.
No. 115, § 8, 6-2-1993]
In addition to any penalty otherwise provided by law,
those persons within the boundary of the park,
whether using its facilities or not, are subject to the
rules and regulations contained herein and may be
ejected from the park in the event that they violate
any rule or regulation.

00000 • CLIENT:Client • APPENDIX part:

xyz 00:00 00/00/07

1a
50a
Appendix E
[LETTERHEAD]
[SEAL]
MEDICAL EXAMINER’S OFFICE
ONONDAGA COUNTY HEALTH DEPARTMENT
CENTER FOR FORENSIC SCIENCES
AUTOPSY REPORT
CASE # M13-1205
NAME: Jessie L. Rose

SEX: Male AGE: 19

JURISDICTION: Oneida County
DATE/TIME OF PRONOUNCEMENT: July 14,
2013 at 5:09 PM
DATE/TIME OF EXAMINATION: July 15, 2013 at
2:00 PM
CAUSE OF DEATH: Shotgun wound of abdomen.
MANNER OF DEATH: Suicide.

s/
Deborah G. Johnson, MD
Medical Examiner

81228 • CAROLL • APPENDIX part: E

01/31/2014
Date

NP 00:00 12/19/19

2a
51a
Excerpt from medical examiners report 7/14/13
JESSIE ROSE

CASE FILE # M13-1205

FINAL PATHOLOGIC DIAGNOSES:
I.

Shotgun wound of abdomen, intermediate range,
with exit

A. Entrance: epigastrium
B. Perforation of stomach, inferior vena cava, right
renal vein and multiple unnamed mesenteric
vessels, status post bilateral chest tube
insertions and exploratory laparotomy with
partial gastrectomy and resection of transverse
colon, 7/14/03
1. Hemothoraces, right 320 ml, left 200 ml
2. Hemoperitoneum, 370 ml (massive bleeding
found by surgeons)
3. Mild edema, brain
C. Consumptive coagulopathy with massive
transfusion of blood products
D. No missile retrieved (wadding retrieved by
surgeon near exit site in retroperitoneum)
E. Exit: left lower back
F. Trajectory: front to back, downward, right to
left
II.

Perforating gunshot wound of left hand, distant
range

A. Entrance: dorsolateral left hand
B. Perforation of skin and subcutaneous tissue
with fracture of fifth left metacarpal bone

00000 • CLIENT:Client • APPENDIX part:

xyz 00:00 00/00/07

3a
52a
C. Exit: left palm
IV. Trajectory: back to front, downward
V.

Superficial abras ions, face, extremities

VI.

Superficial incised wound, right ventral wrist

VII. Stigmata of self-mutilation or “cutting”:
numerous old linear scars over ventral left
forearm and thighs
VIII. See separate toxicology report
OPINION:
Based on consideration of circumstances surrounding
the death, review of available medical
history/records, autopsy examination, and
toxicological analysis, the death of Jessie Rose, to a
reasonable degree of medical certainty, is the result
of a shotgun wound of the abdomen. A complete
autopsy found a perforating shotgun wound of the
abdomen that entered about four inches above the
umbilicus slightly right of midline and exited from a
point about 2½ inches lower on the left back, about
2½ inches left of the spine. Wadding recovered by the
surgeons and also identical to that seen from the
spent shells on the ground in police scene photos is
consistent with some sort of Sabot or slug type of load
and appears to be of old vintage. The range of fire is
intermediate with stippling found around the wound
within a 4 cm radius. Such a “sawed-off” shotgun
could leave a pattern of stippling as seen on the body
when fired from a very short distance away such as
an inch or two, even though the presence of stippling
by definition makes the range of fire “intermediate.”
X-rays of the body found no retained projectiles
anywhere. The only other gunshot wound on the body

00000 • CLIENT:Client • APPENDIX part:

xyz 00:00 00/00/07

4a
53a
was on the left hand, through the left fifth
metacarpal bone, which entered the dorsal hand and
exited the palm. The characteristics of the hand
wound are consistent with the police ammunition
known to have been used. No stippling or soot was
around this wound. Toxicological analyses of hospital
specimens found indications of a benzodiazepine and
marijuana on initial screens, however, further
attempts to confirm these compounds found no
detectable amounts of either in the blood (see
separate toxicology report). Based on the
circumstances surrounding the death, as currently
known, the manner of death is suicide.

00000 • CLIENT:Client • APPENDIX part:

xyz 00:00 00/00/07

